OFFICE OF INSPECTOR GENERAL



Audit of USAID’s Financial 

Statements for Fiscal Years 2005 

and 2004 

AUDIT REPORT NO. 0-000-06-001-C
November 14, 2005




WASHINGTON, DC
Office of Inspector General

November 14, 2005

MEMORANDUM

TO:                  USAID CFO, Lisa D. Fiely

FROM:                Acting AIG/A, Joseph Farinella

SUBJECT:             Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004

With this memorandum, the Office of Inspector General (OIG) is transmitting its report on the Audit
of USAID’s Financial Statements for Fiscal Years 2005 and 2004. Under the Government
Management Reform Act of 1994, USAID is required to prepare consolidated fiscal year-end
financial statements. For FY 2005, USAID is required to submit audited financial statements to
the Office of Management and Budget (OMB) and the U.S. Department of the Treasury
(Treasury) by November 15, 2005, in accordance with OMB Circular A-136.

The OIG has issued unqualified opinions on all five of USAID’s principal financial statements for
fiscal years 2005 and 2004. An error in the application of a programming procedure affected
the comparability of the financial statements with those of the preceding period, requiring a
restatement of the prior year financial statements. The effects of this error are documented in
Note 22 of the financial statements.

With respect to internal control, our report discusses one material internal control weakness and
three reportable conditions identified during the audit. The material internal control weakness is
related to USAID’s Accruals Reporting System and its effect on accounting and reporting for
accrued expenditures and accounts payable. The reportable conditions address USAID’s need
to: (1) perform reconciliations of its Fund Balance with the U.S. Treasury; (2) perform regular
reconciliations of its intragovernmental transactions; and (3) improve recognition and reporting
over its accounts receivable.

This report contains three recommendations to improve USAID’s internal control over financial
reporting and the preparation of its annual financial statements.

We have received and considered your response to our findings and recommendations in the
draft audit report. Based on your response, we have accepted your comments as management
decisions. Please forward information related to the resolution of these findings to the Audit,
Performance & Compliance Division for acceptance and final action (see Appendix II for
USAID’s Management Comments).

We appreciate the cooperation and courtesies that your staff extended to the OIG during the
audit and look forward to working with you on our audit of the fiscal year 2006 financial
statements.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective................................................................................................................ 2 


Independent Auditor’s Report on USAID’s Financial Statements.............................. 3 


Independent Auditor’s Report on Internal Control ...................................................... 4 


     USAID’s Accruals Reporting System 

     Needs Improvement.................................................................................................... 5 


     USAID’s Process for Reconciling Its 

     Fund Balance with the U.S. Treasury 

     Needs Improvement ................................................................................................... 7 


     USAID’s Intragovernmental 

     Transactions Remain Unreconciled ........................................................................... 9 


     USAID’s Process for Recognizing and 

     Reporting Its Overseas Accounts 

     Receivable Needs Improvement ............................................................................... 10 


Independent Auditor’s Report on USAID’s Compliance 

with Laws and Regulations .......................................................................................... 12 


     Reportable FFMIA Noncompliance .......................................................................... 13 


Evaluation of Management Comments ....................................................................... 17 


Appendix I – Scope and Methodology ........................................................................ 18 


Appendix II – Management Comments ....................................................................... 20 


Appendix III – Status of Prior Year Findings and Recommendations...................... 23 


Appendix IV – Financial Highlights ............................................................................. 25 


Appendix V – Financial Statements, Notes, 

Required Supplementary Information and 

Other Accompanying Information (From 

USAID’s Fiscal Year 2005 Performance and 

Accountability Report).................................................................................................. 30 

SUMMARY OF RESULTS

In our opinion, USAID’s consolidated balance sheets, consolidated statements of
changes in net position, consolidated statements of net cost, combined statements of
budgetary resources, and consolidated statements of financing present fairly, in all
material respects, the financial position of USAID as of September 30, 2005 and 2004;
and its net cost, net position, and budgetary resources for the years then ended are in
conformity with generally accepted accounting principles.

As described in Note 22, USAID corrected an error it had made in calculating accruals
during fiscal year 2004, and made related adjustments and disclosures to restate its
2004 financial statements.

Our audit identified one material internal control weakness and three reportable internal
control conditions. The material internal control weakness relate to USAID’s need to
improve its Accruals Reporting System.

The reportable conditions relate to USAID’s need to improve its:

   	 Process for reconciling its Fund Balance with the U.S. Treasury,
   	 Intragovernmental transaction reconciliation process,
   	 Process for recognizing and reporting its overseas accounts receivable.

In addition, our audit identified reportable noncompliance related to requirements of the
Federal Financial Management Improvement Act, as follows:

   	 Phoenix was not fully deployed, but progress has been made,
   	 Legacy financial systems at overseas missions did not comply with the U.S.
      Government Standard General Ledger at the transaction level, and
   	 Financial reporting capabilities need improvement.




                                                                                       1
BACKGROUND

The United States Agency for International Development (USAID) was created in 1961
to advance the United States’ foreign policy interests by promoting broad-based
sustainable development and providing humanitarian assistance. USAID has an
overseas presence in over 80 countries, 38 of which have operational accounting
stations. In fiscal year 2005, USAID had total budgetary resources of $13.1 billion.

Under the Government Management Reform Act of 1994, USAID is required to annually
submit audited financial statements to the Office of Management and Budget (OMB) and
the U.S. Treasury. Pursuant to this Act, for fiscal year 2005, USAID has prepared the
following:

      Consolidated Balance Sheet,
      Consolidated Statement of Changes in Net Position,
      Consolidated Statement of Net Cost,
      Combined Statement of Budgetary Resources,
      Consolidated Statement of Financing,
      Notes to the principal financial statements,
      Other Required Supplementary Information, and
      Management’s Discussion and Analysis.

AUDIT OBJECTIVE
Did USAID’s principal financial statements present fairly the assets, liabilities, net
position, net costs, changes in net position, budgetary resources, and
reconciliation of net costs to budgetary resources for fiscal years 2005 and 2004?

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; budgetary
resources; and reconciliation of net costs to budgetary resources as of September 30,
2005 and 2004 and for the years then ended.

In accordance with Government Auditing Standards, we have also issued reports (dated
November 14, 2005) on our consideration of USAID’s internal control over financial
reporting and on our tests of USAID’s compliance with certain provisions of laws and
regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.




                                                                                        2
Independent Auditor’s Report on
USAID’s Financial Statements
We have audited the accompanying consolidated balance sheets of USAID as of
September 30, 2005 and 2004, and the consolidated statements of changes in net
position, consolidated statements of net cost, combined statements of budgetary
resources, and consolidated statements of financing of USAID for the years ended
September 30, 2005 and 2004.

We conducted our audits in accordance with auditing standards generally accepted in
the United States; Government Auditing Standards issued by the Comptroller General of
the United States; and the Office of Management and Budget (OMB) Bulletin No. 01-02.
Audit Requirements for Federal Financial Statements. Those standards require that we
plan and perform the audit to obtain reasonable assurance that the financial statements
are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit
also includes assessing the accounting principles used and the significant estimates
made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; budgetary
resources; and reconciliation of net costs to budgetary resources as of September 30,
2005 and 2004 and for the years then ended.

Management’s Discussion and Analysis, Required Supplementary Information, and
other accompanying information contain a wide range of data, some of which are not
directly related to the financial statements. We do not express an opinion on this
information. However, we compared this information for consistency with the financial
statements and discussed the methods of measurement and presentation with USAID
officials. Based on this limited work, we found no material inconsistencies with the
financial statements or nonconformance with OMB guidance.

In accordance with Government Auditing Standards, we have also issued our reports,
dated November 14, 2005 on our consideration of USAID’s internal control over financial
reporting and on our tests of USAID’s compliance with certain provisions of laws and
regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.



USAID, Office of Inspector General
November 14, 2005




                                                                                        3
Independent Auditor’s Report on
Internal Control
We have audited the consolidated balance sheets of USAID as of September 30, 2005
and 2004. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, combined statements of budgetary resources, and
consolidated statements of financing for the fiscal years ended September 30, 2005 and
2004, and have issued our report thereon dated November 14, 2005. We conducted the
audits in accordance with generally accepted auditing standards; Government Auditing
Standards issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements.

In planning and performing our audits of USAID’s financial statements for the fiscal years
ended September 30, 2005 and 2004, we considered its internal control over financial
reporting by obtaining an understanding of the agency’s internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our system of internal
control testing to those controls necessary to achieve the objectives described in OMB
Bulletin 01-02. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such as those
controls relevant to ensuring efficient operations. The objective of our audit was not to
provide assurance on internal control. Consequently, we do not provide an opinion on
internal control.

Our consideration of internal control over financial reporting would not necessarily
disclose all matters in internal control over financial reporting that might be reportable
conditions. Under standards established by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of internal control that, in our judgment,
could adversely affect the Agency’s ability to record, process, summarize, and report
financial data consistent with the assertions by management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements, losses, or noncompliance may
occur and not be detected. Our consideration of internal control over financial reporting
would not necessarily disclose all reportable conditions that are also considered to be
material weaknesses as defined above. We noted certain matters (discussed in the
following paragraphs) involving internal control and its operation that we consider to be
reportable conditions and one matter that we consider to be a material weakness.




                                                                                            4
The material internal control weakness relates to USAID’s need to improve its Accruals
Reporting System.

The reportable conditions relate to USAID’s need to improve its:

      Process for reconciling its Fund Balance with the U.S. Treasury

      Process for reconciling intragovernmental transactions

      Process for recognizing and reporting its overseas accounts receivable.

With respect to internal control related to performance measures reported in USAID’s
Performance and Accountability Report, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions, as
required by OMB Bulletin 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures and, accordingly, we
do not provide an opinion on such controls.

We also noted other matters involving the internal control over financial and performance
reporting which we reported to USAID management in a separate letter dated November
14, 2005.

USAID’s Accruals Reporting System Needs Improvement

Summary: USAID’s Accruals Reporting System produced erroneous information that
limited the ability of Cognizant Technical Officers (CTOs) to accurately reflect their
estimates of accrued expenditures and accounts payable in USAID’s accounting
records. In our testing of the Accruals Reporting System in Washington, DC, the OIG
determined that it did not correctly compute unliquidated obligation information, and
used this incorrect information as an upper limit for accrual estimates. This occurred
because USAID’s Accruals Reporting System was not correctly programmed to calculate
unliquidated obligations based on the amounts obligated and amounts vouchered. As a
result, USAID’s accrued expenditures and accounts payable were recorded inaccurately
and USAID was required to record $440 million in upward adjustments. The OIG
recommended an additional $131 million in downward adjustments based on the
projected errors in accrual calculations by CTOs in Washington. The OIG did note
improvements in the accrual methodologies used by CTOs in USAID’s overseas
missions during FY 2005.

OMB’s Core Financial System Requirements stipulate that an agency’s core financial
system must be able to provide timely and useful financial information to support:
management’s fiduciary role; budget formulation and execution functions; fiscal
management of program delivery and program decision making and; internal and
external reporting requirements.       External reporting requirements include the
requirements for financial statements prepared in accordance with the form and content
prescribed by OMB, reporting requirements prescribed by Treasury, and legal,
regulatory and other special management requirements of the agency. The core
financial system must provide complete, reliable, consistent, timely and useful financial
management information on operations.




                                                                                       5
According to USAID’s Automated Directives System (ADS) 631, financial documentation
represents any documentation that impacts on or results in financial activity. It is not
limited to documentation within the financial management operations but includes any
source material resulting in a financial transaction. CTOs, Loan Officers, Grants
Officers, Strategic Objective teams, and others are responsible for retaining financial
documentation and ensuring its availability for audit. ADS 631 states that these
individuals must gather cost data—such as supporting project documentation, activity
reports, delivery reports, or fixed reoccurring expenses—for the accruals exercise and
then compare the data to payment histories and advances to estimate quarterly
accruals.

At USAID, accrued expenditures are accounting estimates of services or goods
rendered which have not yet been paid. In conducting quarterly accrual estimates,
USAID relied on a combination of its automated Accruals Reporting System and the
efforts of its CTOs at overseas missions and in Washington, DC. The OIG found that
amounts accrued via accrual worksheets prepared by CTOs sometimes lacked sufficient
documentation to support accrual estimates and that such documentation could often
not be produced subsequent to the recording of the estimates.

The larger problem, however, was that USAID’s Accruals Reporting System did not
always correctly compute unliquidated obligation information resulting in many instances
of under-estimation of accrual information. The system is designed to generate a logical
estimate of quarterly contract and grant expenditures that can be modified by CTOs who
have more direct information on the quarterly activity of contractors and grantees.
However, both the system estimate and the modified CTOs calculations were ignored by
the system when the unliquidated amount contained in the system was lower. This
lower unliquidated amount was ultimately posted to USAID’s accounting records. The
OIG noted various instances where this occurred and determined that the default to a
lower unliquidated amount reduced accounts payable and accrued expenditures by as
much as $440 million. Once presented with this information, USAID identified a
programming error that it corrected within hours of its discovery. Based on the OIG
discovery, USAID made a $440 million adjustment to more accurately present accrued
expenditures and accounts payable for year-end financial reporting.

With respect to CTO estimates, we found accrual documentation errors, including
incorrect calculations, misinterpretation of grantee information, and incorrect
comparisons of estimated expenditure reports. Based on the projected errors of
accruals estimated by CTOs in Washington, the OIG recommended an additional $131
million in adjustments to more accurately reflect accounts payable and accrued
expenditures. These errors occurred more frequently within USAID’s three pillar which
are responsible for 90 percent of all accrual estimates in Washington, DC, as the table
below illustrates:




                                                                                      6
USAID Pillar Bureau                              Percentage of All Washington
                                                 Accrual Estimates from the
                                                 Accruals Reporting System
                                                 (2005 4th Quarter)
Democracy, Conflict and Humanitarian             64%

Assistance (DCHA)
Global Health (GH)                               14% 

Economic Growth, Agriculture and Trade           12%

(EGAT)
All Other Washington Offices                     10% 

Total                                            100%

In response to a previous OIG recommendation, USAID has worked with the contractor
maintaining its core accounting system (Phoenix) to improve the quality of CTO
information, allowing the OIG to more easily locate the USAID managers responsible for
maintaining accrual estimates and to perform a more complete analysis of the accrual
information. In addition, USAID hired a contractor to train its CTO and, as a result, 471
CTOs were trained in Washington, DC during 2005. USAID should continue its
commitment to train its CTOs.

To address the deficiencies of the Accruals Reporting System, the OIG is making the
following recommendation.
   Recommendation 1: We recommend that USAID’s Office of the Chief Financial
   Officer modify USAID’s interface between the Accruals Reporting System and the
   USAID accounting system general ledger so that it correctly calculates and posts
   accrual information and that it establishes a review mechanism in the Accruals
   Reporting System to review accrual information for propriety before it is posted to the
   general ledger.


Reportable Conditions

USAID’s Process for Reconciling Its Fund Balance with the U.S.
Treasury Needs Improvement (Repeat Finding)
Summary: USAID reconciled its Fund Balance with Treasury with the balance reported
by U.S Treasury but did not always investigate and resolve the reconciling items. As a
result, USAID was required to make significant end-of-year adjustments to bring its
balance into agreement with Treasury’s balance. At the end of FY 2005, USAID’s net
unreconciled condition with the U.S. Treasury grew from $95 million to $115 million.
USAID recorded adjustments throughout 2005 to ensure that its Fund Balance with the
U.S. Treasury reported on Form 2108, Year End Closing Statement, agreed with the
balance in Treasury’s records, instead of investigating and resolving the differences.
USAID did not develop written narratives documenting the reasons for its year-end
adjustments on unreconciled conditions of its fund balance accounts.




                                                                                        7
U.S. Treasury reconciliation procedures state that an agency (1) may not arbitrarily
adjust its fund balance with the U.S. Treasury account, and (2) can adjust its fund
balance with the U.S. Treasury account balance only after clearly establishing the
causes for any errors and properly correcting those errors. USAID’s written narratives
should have been developed for the unreconciled conditions of its Fund Balance with
Treasury accounts.

The U.S. Department of Treasury’s guidance for reconciling fund balances requires that
Federal agencies research and resolve differences reported by the U.S. Treasury on a
monthly basis. Agencies must also resolve all differences between the balances
reported in their general ledger fund with Treasury accounts and the balances reported
by the U.S. Treasury. This guidance stipulates three months as a reasonable period for
clearing the differences. In addition, the procedures state that an agency should
document “month cleared” (the accounting month that the discrepancy was adjusted),
accounting periods, required explanations, and brief narratives that disclose the cause of
the discrepancy.

The OIG identified several problems that continue to limit USAID’s ability to investigate
and correct differences between its reported fund balances and the balances reported by
Treasury’s Financial Management Service (FMS). Specifically, USAID did not document
the issues that resulted in unreconciled conditions and did not implement procedures to
quickly research and resolve unreconciled items. USAID’s responsible personnel did not
review, certify, or sign monthly reconciliation documents, in accordance with Treasury
Financial Manual (TFM) 5100 requirements. The OIG determined that because of these
problems, it was not clear whether USAID clearly established and reported the
conditions to the USAID managers for the function and whether USAID properly
corrected reconciling items and unreconciled conditions of the fund balance accounts.
Moreover, USAID’s overseas missions continue to have large unreconciled balances
because they have not been able to implement procedures to resolve reconciling items
in a timely manner and because accounting stations responsible for several client
missions do not consistently receive documentation to support unreconciled
transactions. As a result, USAID had to make a significant adjustment to reconcile its
Fund Balance with the U.S. Treasury.

In October 2005, USAID issued Chief Financial Officer Bulletin No. 06-1001, (the
Bulletin) Reconciliation With U.S. Treasury, describing policy procedures directed at
USAID and the Mission Controller Offices. This document requires that USAID and
Mission Controllers perform timely and complete monthly reconciliations with the U.S.
Treasury Disbursing Offices, including certifying and documenting the results to the
Deputy Chief Financial Officer in Washington.        Specifically, this document calls on
USAID and Mission Controllers to document and justify in writing (narrative form) the
rationale for carrying forward any unpaid and unsupported transactions over 90 days old.
Furthermore, the Bulletin stipulates that documentation and narratives must be
maintained by the appropriate accounting office and made available to the Agency’s
management, auditors, and the U.S. Treasury as requested. The Bulletin also calls on
USAID and Mission Controllers to follow USAID’s specific written guidance for write-offs
of unreconciled transactions, and to certify that the reconciliation process with the U.S.
Treasury has been performed according to TFM Volume 1. Part 2-5100.

To ensure that USAID conducts its prescribed reconciliation procedures, we are making
the following recommendation:


                                                                                        8
   Recommendation No. 2: We recommend that the Office of the Chief Financial
   Officer ensure that USAID financial managers and mission controllers implement the
   reconciliation guidelines specified by Chief Financial Officer Bulletin No. 06-1001,
   Reconciliation with U. S. Treasury, dated October 2005 to ensure Fund Balance with
   Treasury accounts are reconciled in a timely manner, reconciling items are
   investigated and resolved, and that adequate documentation is retained to support
   the reconciliation procedures performed.

USAID’s Intragovernmental Transactions Remain Unreconciled
(Repeat Finding)
Summary: USAID did not resolve all significant differences in intragovernmental
transactions between USAID and its trading partners throughout fiscal year 2005. FMS
reported a $5.9 billion net difference in intragovernmental transactions for the 4th quarter
in the Intragovernmental Summary Activity Report, with an absolute value of $6.9 billion.
Section 11.3 of OMB Bulletin 01-09 requires Federal agencies to perform quarterly
reconciliations of intragovernmental transactions and these reconciliations are to be
conducted in accordance with the FMS Federal Intragovernmental Transactions
Accounting Policies Guide. Although USAID reconciled material differences identified by
FMS in its quarterly Material Differences/Status of Disposition Certification (MD/SD)
Report and other differences equal to or greater than $100 million, it did not consistently
reconcile other significant differences by reciprocal category with its Federal trading
partners throughout FY 2005. Until intragovernmental transactions are reconciled,
USAID’s financial statements are subject to error.

Beginning in the quarter ending March 31, 2004, FMS implemented its
Intragovernmental Management Control Plan to address a material weakness cited by
the Government Accountability Office in the Financial Report of the United States
Government. FMS monitors the intragovernmental payment and collection (IPAC)
process for the entire Federal government and accumulates daily IPAC transactions
among all Federal agencies. To facilitate quarterly reporting, FMS developed a
reconciliation process based on a reciprocal category concept. As of September 30,
2005, FMS identified $6.9 billion of unreconciled differences between USAID and 36
separate Federal government agencies.

In its response to a finding reported by the OIG in FY 2004, USAID agreed to reconcile
all differences equal to or greater than $100 million. USAID also reconciled all
differences that FMS reported on the MD/SD Report. For the 4th quarter of FY 2005
these differences amounted to $742 million out of $6.9 billion the total differences
reported.

We noted that $5.2 billion of unreconciled transactions under Trading Partner 99 are not
required to be reconciled by USAID because these transactions indicate general fund
activities between USAID and the U.S. Treasury. FMS does suggest that Federal
agencies confirm that these differences represent general fund activities, however, and
this was not always documented.

For other trading partners, USAID investigated the differences, identified reasons for the
differences, reported the reasons to FMS, contacted the responsible personnel at the


                                                                                          9
trading partners, and took appropriate action to resolve them. Nevertheless, USAID’s
reconciliations are not always documented, and differences persist because Federal
trading partners did not always perform the same investigations. While some timing
differences may ultimately be resolving differences due to accounting errors or different
accounting methodologies require a special effort by USAID and its trading partners for
timely resolution. The Federal Intragovernmental Transactions Accounting Policy Guide
suggests that agencies should work together to estimate accruals and to record
corresponding entries in each set of records so that they are in agreement or that long
term accounting policy differences can be easily identified. As a result of the reportable
condition, until these reconciliations are complete, USAID’s year-end balances related to
intragovernmental line items reported on the financial statements are subject to
misstatement.

Through its participation in the Chief Financial Officers’ Council, USAID expects to
continue to work with other federal agency financial management leaders to
support intragovernmental reconciliation activities, including but not limited to; the
facilitation of requests for data; agreement on accounting presentation and; investigation
and resolution of differences.

Because significant differences in intragovernmental transactions remain between
USAID and its trading partners in fiscal year 2005, we are making the following
recommendation:

   Recommendation No 3: We recommend that USAID’s Office of the Chief Financial
   Officer develop a system for reviewing transactions reported under Trading Partner
   99 to ensure that they are properly classified and appropriately reported, as
   recommended by section 4706.30 of TFM 2-4700, “Agency Reporting Requirements
   for the Financial Report of the United States Government.”

USAID’s Process for Recognizing and Reporting Its Overseas
Accounts Receivable Needs Improvement (Repeat Finding)
Summary: USAID's process for recording and reporting receivables still needs
improvement. Although many missions are currently using Phoenix for overall financial
management, these same missions are still reporting only their quarterly accounts
receivable balances to USAID’s Washington headquarters separately, and outside of
Phoenix. This occurred because USAID has not strengthened its procedures for
accounting and reporting for accounts receivable at its overseas missions. As a result,
USAID still cannot routinely provide current accounts receivable information for its
overseas missions.

Statement of Federal Financial Accounting Standards No. 1, paragraphs 40-52,
Accounts Receivable requires the recognition (recording) of accounts receivable when a
claim to cash or other assets has been established. The establishment of accounts
receivable cannot occur on a timely basis unless there are adequate procedures in place
for recognizing, recording and reporting them at the end of each accounting period.

A memorandum from the USAID/Chief Financial Officer on the Mission Year-end
Financial Data Certification Process cited that it was "assumed" that migrated missions
(those with access to Phoenix) would report accounts receivable transactions directly.


                                                                                       10
Missions that have migrated their accounting system to Phoenix are still using the same
data-call process being used by those missions without access to Phoenix. The data-
call process requires missions to separately report their accounts receivable balances
every quarter to allow for the preparation of USAID’s quarterly financial statements. As
a result, USAID does not have current detailed information on accounts receivable
balances for its overseas missions despite the integration of an accounting system
overseas that allows for this.

Since Phoenix does not contain current information on mission accounts receivable, the
reports it generates are incomplete. USAID, for example, generates an aged accounts
receivable report from Phoenix that provides details of past due receivables. But
information contained in this report that relate to USAID’s overseas missions cannot be
relied on for decision-making as long as overseas missions do not consistently use the
system for accounting for receivables.

In our FY 2004 audit report, the OIG previously considered the lack of a worldwide
integrated financial management system that correctly recognizes and records accounts
receivable, to be a reportable internal control condition; therefore we are not including an
additional recommendation to address this condition. Instead, we will continue to
monitor USAID's progress in implementing the OIG's previously recommended
corrective actions.

This report is intended solely for the information and use of the management of USAID,
OMB and Congress, and is not intended to be and should not be used by anyone other
than those specified parties.



USAID, Office of Inspector General
November 14, 2005




                                                                                         11
Independent Auditor’s Report on
USAID’s Compliance with Laws
and Regulations
We have audited the consolidated balance sheets of USAID as of September 30, 2005
and 2004. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, combined statements of budgetary resources, and
consolidated statements of financing for the fiscal years ended September 30, 2005 and
2004, and have issued our report thereon. We conducted the audit in accordance with
generally accepted auditing standards. Government Auditing Standards, (issued by the
Comptroller General of the United States) and Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

The management of USAID is responsible for complying with laws and regulations
applicable to USAID. As part of obtaining reasonable assurance about whether USAID’s
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations- noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and with certain other laws and regulations specified in OMB Bulletin 01-02,
including the requirements referred to in the Federal Financial Management
Improvement Act (FFMIA) of 1996. We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Under FFMIA, we are required to report whether USAID’s financial management
systems substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA section 803(a) requirements. The results of our tests
disclosed four instances in which USAID's financial management systems did not
substantially comply with FFMIA requirements.

Our tests of compliance with selected provisions of laws and regulations disclosed
instances of noncompliance considered to be reportable under Government Auditing
Standards. However, our objective was not to provide an opinion on overall compliance
with laws and regulations. Accordingly, we do not express such an opinion.

Federal Financial Management Improvement Act of 1996

Under FFMIA, we are required to report whether the Agency’s financial management
systems substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA section 803(a).

The results of our tests disclosed three continuing instances, described below, where the


                                                                                      12
Agency’s financial management systems did not substantially comply with Federal
financial management systems requirements and the U.S. Government Standard
General Ledger at the transaction level.

Reportable FFMIA Noncompliance (Repeat Finding)
Since 1997, the OIG has reported that USAID’s financial management systems do not
substantially comply with system requirements under FFMIA. Since then, USAID
initiated the Financial Systems Integration project to acquire and incrementally
implement through successive phases and product releases, a single, Agency-wide
integrated core financial system known as Phoenix.1

In fiscal year 2005, USAID made significant strides to overcome the longstanding FFMIA
noncompliance conditions and modernize its financial management systems. As a
result, USAID is now closer to having an integrated core financial system, but the
Agency still must rely on a combination of its partially deployed Phoenix system, legacy
systems, and informal and unofficial records. Therefore, the following three reportable
noncompliance conditions still remain:

    USAID’S FFMIA REPORTABLE NONCOMPLIANCE CONDITIONS

    Deficiencies                                             FFMIA Requirements

    Phoenix is Not Fully Deployed, But Progress is Being     Financial management
    Made                                                     systems requirements
    Legacy Financial Systems at Overseas Missions Did Not    U.S. Government Standard
    Comply With the U.S. Government Standard General         General Ledger at the
    Ledger at the Transaction Level                          transaction level
    Financial Reporting Capabilities Need Improvement        Financial management
                                                             systems requirements

According to FFMIA, Federal agencies must implement and maintain financial
management systems that substantially comply with Federal financial management
system requirements. The Act states that users should have on-line access to, or
receive daily reports on, the status of funds to perform analysis or make decisions. OMB
Circular A-11 states that an agency that is not in compliance with FFMIA must prepare a
remediation plan. The purpose of a remediation plan is to identify activities planned and
underway that will allow the agency to achieve substantial compliance with FFMIA.
Remediation plans must include the resources, remedies, interim target dates, and
responsible officials. The remediation target dates must be within three years of the
date the system was determined not to be substantially compliant.

USAID prepared a remediation plan for fiscal years 2005 and 2006 that sets forth a
strategy for modernizing its financial management systems and details specific plans
and targets for achieving substantial compliance with Federal financial management
requirements and standards. USAID met remediation plan target dates in fiscal year
2005 and officials expect to achieve substantial compliance with FFMIA when the
1
 The Phoenix system is based on CGI-AMS Momentum Financials®, a Commercial Off-the-Shelf
financial management system designed for Federal agencies. In May 2005, USAID upgraded the
system from version 3.7.4 to version 6.0.3.


                                                                                        13
Phoenix system is fully deployed to the field in June 2006.

Phoenix is Not Fully Deployed, but Progress is Being Made

During fiscal year 2005, USAID made measurable progress with its Phoenix Overseas
Deployment project. OMB Circular A-127, Financial Management Systems, prescribes
policies and standards for agencies to follow in developing, operating, evaluating, and
reporting on financial management systems. USAID’s ability to meet such requirements
rests with its successful overseas deployment of Phoenix.

At the beginning of the fiscal year, Phoenix was only operating in USAID/Washington
and at five overseas missions but by the end of September 2005, it was operating at 22
of 53 missions. Additionally, USAID upgraded the Phoenix software from Momentum
Financials version 3.7.4 to version 6.0.3 for both USAID/Washington and the overseas
missions. The upgrade provides several improvements, such as increased functionality
and features, and enables the Agency to meet key strategic objectives, including
standardizing Momentum versions with the Department of State, complying with new
Federal requirements, and complying with security best practices, such as standards-
based encryption.

While this progress is impressive, USAID still needs to deploy Phoenix to the 31 other
overseas missions that are still using the Agency’s legacy Mission Accounting and
Control System (MACS). In the meantime, USAID continues to rely on a combination of
its partially deployed Phoenix system, legacy systems, and informal and unofficial
records.

While it is closer to having an integrated core financial system, the Agency still must use
MACS to process obligations at overseas missions not yet converted to Phoenix. As a
result, USAID may not have provided users at those locations with the complete,
accurate, and timely financial information needed for decision-making purposes.

According to OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
each Federal agency is responsible for establishing a funds control system that will
ensure that the agency does not obligate or expend funds in excess of those
appropriated or apportioned. The Circular also states that multi-year unobligated funds
remaining available at year-end must be reapportioned in the upcoming fiscal year.

In January 2003,2 the OIG reported that, because USAID did not have an integrated
financial management system, it used a separate system (MACS) to process obligations
for its overseas missions. As such, the appropriation amount displayed as available
after the roll-up of mission obligations was overstated by the amount of these same
mission obligations. To compensate for this weakness, USAID allowed only a few users
to apportion funds. Further, those users had access to records held outside of Phoenix
to track mission obligations and determine the correct amount available for
apportionment. Because this issue should be corrected with the successful deployment
of Phoenix to the overseas missions, we do not make any recommendations to correct it.



2
  Report on USAID’s Consolidated Financial Statements, Internal Controls And
Compliance for Fiscal Year 2002 (Audit Report No. 0-000-03-001-C, January 24, 2003).


                                                                                        14
Legacy Financial Systems at Overseas Missions Did Not Comply With U.S.
Government Standard General Ledger at the Transaction Level

For overseas missions that had not yet converted to Phoenix, USAID continued to use
the legacy MACS system as its financial system. However, MACS does not record
mission activities using the U.S. Government Standard General Ledger (SGL) at the
transaction level to support financial reporting and to meet FFMIA requirements.
Consequently, USAID cannot ensure that transactions are posted properly and
consistently from mission to mission.

FFMIA requires agencies to implement and maintain systems that comply substantially
with, among other things, the SGL at the transaction level. According to OMB Circular
A-127, Financial Management Systems, application of the SGL at the transaction level
means that a financial management system will process transactions following the
definitions and defined uses of the general ledger accounts as described in the SGL.
Compliance with this standard requires:

x	 Data in Financial Reports Consistent with the SGL. Reports produced by the
   systems that provide financial information, whether used internally or externally, shall
   provide financial data that can be traced directly to the SGL accounts.

x	 Transactions Recorded Consistent with SGL Rules. The criteria (e.g., timing,
   processing rules/conditions) for recording financial events in all financial
   management systems shall be consistent with accounting transaction definitions and
   processing rules defined in the SGL.

x	 Supporting Transaction Details for SGL Accounts Readily Available. Transaction
   details supporting SGL accounts shall be available in the financial management
   systems and directly traceable to specific SGL account codes.

In sum, to support financial reporting and to meet FFMIA requirements, USAID needs to
record mission activities using SGL at the transaction level USAID officials expect that
substantial compliance with FFMIA will be achieved when Phoenix is fully deployed in
June 2006. Because this issue should be corrected with the successful deployment of
Phoenix to the overseas missions, we did not make any recommendations to correct it.

Financial Reporting Capabilities Need Improvement

USAID financial management professionals are relying on separate reporting
mechanisms outside of Phoenix for day-to-day management of their programs because
many of USAID’s standard financial reports available in Phoenix and through Crystal
Enterprise (USAID’s additional reporting package software) are not always useful for the
routine management and monitoring of USAID’s financial activities. Under FFMIA,
Federal agencies must incorporate established accounting standards and reporting
objectives into their financial management systems so that assets, liabilities, revenues,
expenditures, and the full costs of programs and activities of the Federal Government
can be consistently and accurately recorded, monitored, and reported. As a result of
USAID’s use of these separate reporting mechanisms, information needed for routine
financial management is generated with less efficiency and at an increased risk of error.



                                                                                        15
Because many of USAID’s reporting capabilities could be improved, Phoenix users rely
on outside programs and use their own manual schedules to develop the information
they need. This may involve consolidating information from various reports available in
Phoenix or Crystal Enterprise. Although preparing separate financial reports can be
inefficient and result in an increased risk of error, some Phoenix users find it more
practical and reliable to use their own reporting mechanisms because the standard
Phoenix reporting options currently do not provide the ability to filter data in a useful way.
Alternatively, Crystal Enterprise, which can filter data, provides only a few standard
options for users.

This report is intended solely for the information and use of the management of USAID,
OMB and Congress, and is not intended to be and should not be used by anyone other
than those specified parties.



USAID, Office of Inspector General
November 14, 2005




                                                                                           16
EVALUATION OF
MANAGEMENT COMMENTS
We have received USAID’s management comments to the findings and
recommendations included in our draft report.         We have evaluated USAID
management comments on the recommendations and have reached management
decisions on all three recommendations. The following is a brief summary of USAID’s
management comments on each of the three recommendations included in this report
and our evaluation of those comments.

Recommendation No. 1

USAID management agreed with Recommendation No. 1, commenting that corrective
action has been taken and will be evaluated further during the first quarter of fiscal year
2006. We agree with the management decision on this recommendation and will
review USAID’s implementation during our fiscal year 2006 financial statement audit.

Recommendation No. 2

USAID agreed with Recommendation No. 2 and expects to update the software that
will improve its reconciliations, by September 30, 2006. We agree with the
management decision on this recommendation and will review USAID’s
implementation of this recommendation during our fiscal year 2006 financial statement
audit.

Recommendation No. 3

USAID agreed with Recommendation No. 3 and plans to conduct quarterly evaluations
of Trading Partner 99 transactions by February 15, 2006. We agree with the
management decision on this recommendation and will review USAID’s
implementation during our fiscal year 2006 financial statement audit.




                                                                                          17
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY 

USAID management is responsible for (1) preparing the financial statements in
accordance with generally accepted accounting principles, (2) establishing, maintaining
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are met, (3) ensuring that
USAID’s financial management systems substantially comply with FFMIA requirements,
and (4) complying with applicable laws and regulations.

The Office of Inspector General is responsible for obtaining reasonable assurance about
whether the financial statements are presented fairly, in all material respects, in
conformity with generally accepted accounting principles. The Office of Inspector
General is also responsible for (1) obtaining a sufficient understanding of internal control
over financial reporting and compliance to plan the audit (2) testing whether USAID’s
financial management systems substantially comply with the three FFMIA requirements,
(3) testing compliance with selected provisions of laws and regulations that have a direct
and material effect on the financial statements and laws for which OMB audit guidance
requires testing, and (4) performing limited procedures with respect to certain other
information appearing in the Accountability Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence
supporting the amounts and disclosures in the financial statements (2) assessed the
accounting principles used and significant estimates made by management, (3)
evaluated the overall presentation of the financial statements, (4) obtained an
understanding of internal control related to financial reporting (including safeguarding
assets), compliance with laws and regulations (including execution of transactions in
accordance with budget authority), and performance measures reported in
Management’s Discussion and Analysis of the Accountability Report, (5) tested relevant
internal controls over financial reporting and compliance, and evaluated the design and
operating effectiveness of internal controls, (6) considered the process for evaluating
and reporting on internal control and financial management systems under the Federal
Managers’ Financial Integrity Act, (7) tested whether USAID’s financial management
systems substantially complied with the three FFMIA requirements, and (8) tested
USAID’s compliance with selected provisions of the following laws and regulations:

      Anti-Deficiency Act
      Improper Payments Information Act
      Prompt Payment Act
      Debt Collection and Improvement Act
      Federal Credit Reform Act
      OMB Bulletin 01-09
      Foreign Assistance Act of 1961

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act, such as those controls relevant
to preparing statistical reports and ensuring efficient operations. We limited our internal
control testing to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may occur and not be detected. We also caution that projecting our


                                                                                         18
evaluation to future periods is subject to the risk that controls may become inadequate
because of changes in conditions or that the degree of compliance with controls may
deteriorate. In addition, we caution that our internal control testing may not be sufficient
for other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the financial statements for the fiscal years
ended September 30, 2005 and 2004. We caution that noncompliance may occur and
not be detected by these tests and that such testing may not be sufficient for other
purposes.

With respect to the Management’s Discussion and Analysis (MD&A), we did not perform
an audit. However, we gained an understanding of USAID’s system of collecting and
reporting performance information. We did not assess the quality of the performance
indicators and performed only limited tests to assess the controls established by USAID.
We conducted a limited review of the internal controls related to the existence and
completeness assertions relevant to the performance measures included in the MD&A.

In forming our opinion, the OIG considered potential aggregate errors exceeding $352
million for any individual statement to be material to the presentation of the overall
financial statements.




                                                                                         19
                                                                           APPENDIX II 




MANAGEMENT COMMENTS



                                                                      November 9, 2005


MEMORANDUM

TO:           Acting AIG/A, Joseph Farinella

FROM:         CFO, Lisa D. Fiely /s/

SUBJECT:      Management Response to Draft Independent Auditor's Report on
              USAID's Financial Statements for Fiscal Years 2005 and 2004 (Report
              No. 0-000-06-001-C)

       Thank you for your partnership in this Fiscal Year (FY) 2005 presentation of
USAID’s Performance and Accountability Report (PAR), and particularly with respect to
the audit of the financial statements, against which the Agency has earned its third
consecutive unqualified opinion. The professionalism of your staff has been outstanding
and I would like to note that the recently retired Acting Inspector General, Bruce
Crandlemire, has left a legacy of collaboration between our organizations.

         FY 2005 has been marked with significant improvements in our financial
operating environment. With the Office of the Inspector General’s (OIG) support, we
have implemented Phoenix in a total of 22 overseas missions and have only two
bureaus remaining to complete worldwide implementation. As we continue to identify
areas for improvement in our systems, we also continue to improve the quality of
information and the availability of information for our clients. In the upcoming years we
will also work to strengthen our financial systems by integrating procurement and
assistance systems that will improve our operations and information gathering processes
and improve our overall reporting capabilities.

       Following are our comments and management decisions regarding the findings
and proposed audit recommendations:

Material Weakness: USAID’s Accruals Reporting System Needs Improvement

Recommendation 1: We recommend that USAID’s Office of the Chief Financial Officer
modify USAID’s interface between the Accruals Reporting System (ARS) and the USAID
accounting system general ledger so that it correctly calculates and posts accrual
information and that it establishes a review mechanism in ARS to review accrual
information for propriety before it is posted to the general ledger.


                                                                                      20
Management Decision: We have already taken the appropriate actions to correct the
interface that created the problem. As part of our 1st quarter FY 2006 accruals cycle and
financial statement preparation process, the Bureau for Management, Office of the Chief
Financial Officer (M/CFO) will evaluate accurate production performance of the interface
to deliver accurate information to the Phoenix general ledgers. Target completion date
is February 15, 2006.

Reportable Condition: USAID’s Process for Reconciling its Fund Balance with
the U.S. Treasury Needs Improvement (Repeat Finding)

Recommendation No. 2: We recommend that the Office of the Chief Financial Officer
ensure that USAID financial managers and mission controllers implement the
reconciliation guidelines specified by CFO Bulletin No. 06-1001, Reconciliation with the
U. S. Treasury, dated October 2005, to ensure that Fund Balance with
Treasury accounts are reconciled in a timely manner, reconciling items are investigated
and resolved, and that adequate documentation is retained to support the reconciliation
procedures performed.

Management Decision: We agree to implement Recommendation No. 2. Target
completion date is September 30, 2006. As noted in the recommendation, M/CFO has
issued guidance on reconciliation processing and will work to enhance guidance on
Phoenix reconciliations. However, improved Phoenix reconciliations will require
enhancements to the Phoenix software as related to reconciliations. The Phoenix team
is aware of needed improvements on reconciliation processes and will be working the
issues in FY 2006.

Reportable Condition: USAID’s Intragovernmental Transactions Remain
Unreconciled (Repeat Finding)

Recommendation 3: We recommend that USAID’s Office of the Chief Financial Officer
develop a system for reviewing transactions reported under Trading Partner 99 to
ensure that they are properly classified and appropriately reported, as recommended by
section 4706.30 of TFM 2-4700, Agency Reporting Requirements for the Financial
Report of the United States Government.

Management Decision: While past practice has been focused on conducting transaction
reviews at year-end, we agree with the recommendation and will accelerate our
processes to conduct quarterly evaluations of Trading Partner 99 transactions. Target
completion date is February 15, 2006.




                                                                                       21
Reportable Condition: USAID’s Process for Recognizing and Reporting its
Overseas Accounts Receivable Needs Improvement (Repeat Finding)

No Recommendation.


Reportable FFMIA Noncompliance (Repeat Finding)

Management Response: As noted earlier, the Agency is making tremendous progress
in our goal of replacing our legacy accounting system with Phoenix. It is my expectation
that by June 2006 USAID will report that Phoenix has been fully implemented for the
accounting of USAID’s worldwide resources. This accomplishment is intended to fully
address all of your concerns related to FFMIA compliance.

        In closing, I would like to confirm USAID’s commitment to continual improvement
in financial management and financial reporting. Thank you.




                                                                                      22
                                                                           APPENDIX III




STATUS OF PRIOR YEAR
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall
be made within a maximum of six months after a final report is issued. Corrective action
should proceed as rapidly as possible. Several audit recommendations directed to
USAID from prior audits either have not been corrected or final action has not been
completed as of September 30, 2005. We have also noted where final action was taken
subsequent to fiscal year-end but prior to the date of this report.

Report on USAID’s Financial Statements, Internal Controls, and Compliance for Fiscal
Year 1998, Audit Report No. 0-000-99-001-F, March 1, 1999

   Recommendation No. 1: Because the Chief Financial Officer lacks the authority
   called for in the CFO Act, we recommend that the Chief Financial Officer collaborate
   with the Assistant Administrator for Management, Chief Information Officer, and
   Bureau for Policy and Program Coordination to:

       1.1 Determine the specific responsibility, authority, and resources needed to
           meet the requirements of the Chief Financial Officers Act of 1990, which
           assigns the Chief Financial Officer responsibility to: (1) develop and maintain
           an integrated accounting and financial management system that meets
           federal financial system requirements, federal accounting standards, and the
           U.S. Standard General Ledger at the transaction level; (2) approve and
           manage financial management system design and enhancement projects;
           and (3) develop a financial management system that provides for systematic
           measurement of performance.

USAID has completed actions on this recommendation.

Independent Auditor’s Report on USAID’s Financial Statements for Fiscal Years 2004
and 2003, Audit Report No. 0-000-05-001-C, November 15, 2004

   Recommendation No.2: We recommend that the USAID Chief Financial Officer, in
   coordination with the Assistant Administrator of the Policy and Program Coordination
   Division:

       2.1 Ensure that annual c	 ertifications of strategic objectives to agency goals,
           which are made when information from the Annual Reports Database are
           finalized, are conducted consistently by all USAID operating units.

       2.2 Include all active strategic objectives expending funds in the Annual Reports
           Database.



                                                                                       23
   (1) conditions of reconciling items and (2) unreconciled conditions of fund balance
   accounts for the reconciliation of the Fund Balance with Treasury, that incorporate and
   enhance existing USAID and federal guidance.

   Recommendation No. 5: We recommend that USAID’s Chief Financial Officer update
   written procedures related to the preparation of the 620(q)/Brooke Amendment
   Violation Report; the monitoring of non-rescheduled loans for countries under
   rescheduling; and the receipt of loan delinquency reports from its loan servicing
   agent.

USAID has completed actions on these recommendations.

Unresolved Prior Year Findings and Recommendations
Report on USAID’s Consolidated Financial Statements, Internal Controls and
Compliance for Fiscal-Year 2002, Audit Report No. 0-000-03-001-C, January 24, 2003

   Recommendation No. 2: We recommend that the Chief Financial Officer:

      2.2 Reconcile the mission adjustment account in the general ledger to the
          cumulative amounts in the mission ledgers and resolve differences between
          the general ledger and the mission ledgers.

Independent Auditor’s Report on USAID’s Financial Statements for Fiscal Years 2004
and 2003, Audit Report No. 0-000-05-001-C, November 15, 2004

   Recommendation No. 1: We recommend that the Chief Financial Officer, in
   coordination with USAID’s Office of Human Resources, update USAID’s Cognizant
   Technical Officer training course and Financial Management Overview training course
   to include sessions on developing and supporting quarterly accrual estimates. The
   training should include information on supporting documentation and on developing
   estimates in the absence of timely disbursement data necessary to develop accurate
   accruals.

   Recommendation No.2: We recommend that the USAID Chief Financial Officer, in
   coordination with the Assistant Administrator of the Policy and Program Coordination
   Division:

      2.2 Include all active strategic objectives expending funds in the Annual Reports
          Database.

   Recommendation No. 4: We recommend that USAID’s Chief Financial Officer direct its
   Financial Management Office to conduct quarterly intragovernmental reconciliations of
   activity and balances with its trading partners in accordance with the requirements of
   the Federal Intragovernmental Transactions Accounting Policies Guide, issued by the
   Department of Treasury’s Financial Management Service.

These recommendations are pending final action by USAID.




                                                                                       24
Unaudited                                                                             APPENDIX IV




            USAID Financial Highlights

     Financial Highlights
     USAID’s financial statements, which appear in the Financial Section of this Report,
     received for the third consecutive year an unqualified audit opinion issued by the USAID
     Office of the Inspector General. Preparing these statements is part of the Agency’s goal
     to improve financial management and provide accurate and reliable information useful
     for assessing performance and allocating resources. Agency management is responsible
     for the integrity and objectivity of the financial information presented in these financial
     statements.


     USAID prepares consolidated financial statements that include a Balance Sheet, a
     Statement of Net Cost, a Statement of Changes in Net Position, a Statement of Budgetary
     Resources and a Statement of Financing. These statements summarize the financial
     activity and position of the agency. Highlights of the financial information presented on
     the principal statements are provided below.

     Overview of Financial Position
     Assets. The Consolidated Balance Sheet shows the Agency had Total Assets of $24.7
     billion at the end of 2005. This represents a 10% increase over previous year’s Total
     Assets of $24 billion. This is primarily the result of increased appropriations received
     during the year as well as an increase in the USAID Foreign Currency balances.

     Table 1: The Agency’s assets reflected in the Consolidated Balance Sheet are
     summarized in the following table (dollars in thousands):

                                                    2005            2004        2003
     Fund Balance with Treasury                      $17,503,843 $15,854,926 $14,215,414

     Loans Receivables, Net                             5,100,249      6,108,252      5,696,597

     Accounts Receivables, Net                            902,863      1,100,968      1,200,387

     Cash, Advances and Other Assets                    1,063,570        847,807        623,477

     Property, Plant and Equipment,                       140,294        117,718         88,360
     Net & Inventory
     Total                                           $24,710,819 $24,029,671 $21,824,235




                                                                                                25

Unaudited                                                                             APPENDIX IV

   Fund Balances with Treasury and Loans Receivable, Net comprise the majority of
   USAID’s assets. Together they account for over 90% of total assets for 2005, 2004 and
   2003. USAID maintains funds with Treasury to pay its operating and program expenses.
   These funds increased by $1.6 billion (10%)

   Loans receivables, net of estimated write-offs due to loan defaults, result from the
   disbursement of funds under the Direct Loan Programs. Loan receivable experienced a
   17% decrease from FY 2004.

   The largest percentage change in assets line items on the Balance Sheet occurred in
   Advances and Prepayments, an increase of 34% (from $559 million in FY 2004 to $750
   million in FY 2005). Nearly all of USAID advances consist of funds disbursed under
   letters of credit to contractors or grantees, administered by U.S. Department of
   Agriculture.

   The table below presents USAID’s asset type by percentage for fiscal year 2005.

   Table 2: Percentage of Assets by Type, FY 2005
   Assets by Type                               Percentage
   Fund Balance with Treasury                          71%

   Loans Receivables, Net                                  20%

   Accounts Receivables, Net                                4%

   Cash, Advances and Other Assets                          4%

   Property, Plant and Equipment, Net &                     1%
   Inventory
   Total                                                100%

   Liabilities. As presented on the Consolidated Balance Sheet, the Agency had almost $11
   billion in Total Liabilities at the end of 2005. This amount represents a $589 million, or
   6 % increase in Total Liabilities from the prior year. Liabilities are summarized in the
   following table (dollars in thousands):

   Table 3:
                                  2005        2004       2003
   Debt & Due to U.S. Treasury $ 5,734,263 $6,145,006 $5,748,890
   Accounts Payable              3,204,824 2,373,001 1,870,077
   Loan Guaranty Liability       1,562,485 1,039,937 1,159,415
   Other Liabilities & Employee    444,571    798,847  553,500
   Benefits
   Total Liabilities            10,946,143 $9,973,791 $9,331,882




                                                                                          26

Unaudited                                                                              APPENDIX IV


    As reflected in Table 3, Liabilities consisting mainly of Credit Program Debt and
    amounts payable to U.S. Treasury and Loan Guaranty Liability account for most of
    USAID’s Total Liabilities for 2005, 2004 and 2003. Debt and Due to Treasury combined
    represented 52 % of Total Liabilities for FY 2005. The Loan Guaranty Liability
    comprised 14 % of Total Liabilities for FY 2005.

    Debt and Due to Treasury combined decreases by 7 %, or $ 411 million, from FY 2004.
    Loan Guaranty Liability, which is associated with USAID’s guarantees of loans made by
    private lending institutions, increased by 50 % or by $ 522 million from FY 2004.

    The largest percentage change in Liabilities occurred in the non-Federal line items.
    Combined Federal and non-Federal Other Liabilities increased by 6 %, or $589 million,
    from FY2004. This change is primarily the result of an increase of accounts payable
    accruals at year end.

    The table below presents USAID’s percentage of liabilities by type for fiscal year 2005
    (dollars in thousands):

    Table 4: Percentage of Liabilities by Type, FY 2005
    Liabilities by Type, FY 2005                  Percentage
    Debt & Due to U.S. Treasury                   52%
    Accounts Payable                              30%
    Loan Guaranty Liability                       14%
    Other Liabilities                                4%
    Total Liabilities                               100%


    Ending Net Position. Net Position is the sum of the Unexpended Appropriations and
    Cumulative Results of Operations. USAID’s Net Position at the end of 2005 on the
    Consolidated Balance Sheet and the Consolidated Statement of Changes in Net Position
    was $13.7 billion, a $91.9 million increase from the previous fiscal year. Unexpended
    Appropriations of $13 billion or 97% represent funds appropriated by the Congress for
    use over multiple years that were not expended by the end of FY 2004.

    Results of Operations
    The results of operations are reported in the Consolidated Statement of Net Cost and the
    Consolidated Statement of Changes in Net Position.

    The Consolidated Statement of Net Cost presents the Agency’s gross and net cost for its
    strategic goals. The net cost of operations is the gross (i.e., total) cost incurred by the
    Agency, less any exchange (i.e., earned) revenue. The accompanying notes to the
    Statement of Net Cost disclose costs by strategic goals and responsibility segments, and
    by intragovernmental costs and exchange revenues separately from those with the public
    for each strategic goal and responsibility segment. A responsibility segment is the


                                                                                              27

Unaudited                                                                             APPENDIX IV


     component that carries out a mission or major line of activity, and whose managers report
     directly to top management. For the Agency, the technical and geographical bureaus
     (e.g., Global Health or Latin America/Caribbean) are considered a responsibility
     segment. Information on the Bureaus can be found in Note 18.

     The presentation of program results by strategic goals is based on the Agency’s current
     joint State/USAID Strategic Plan established pursuant to the Government Performance
     and Results Act of 1993.

     The Agency’s total net cost of operations for 2005, after intra-agency eliminations, was
     $12.3 billion. The strategic goal, Social and Environmental Issues represents the largest
     investment for the Agency at 34.5% of the Agency’s net cost of operations. The net cost
     of operations for the remaining goals ranges from 0.1% to 32.1 %. Following is a
     breakout of net cost by Strategic Goal.

     Table 5: Net Program Costs by Strategic Goal, FY 2005
     Where the Funds Go – Net Program              Dollar
     Costs (Dollars in Thousands)                  Amount
     Regional Stability                               $ 784,066
     Counterterrorism                                   887,479
     International Crime and Drugs                      217,451
     Democracy and Human Rights                         1,192,108
     Economic Prosperity and Security                   3,935,264
     Social and Environmental Issues                    4,230,638
     Humanitarian Response                                993,950

     Management and Organizational Excellence              14,670

     Total                                           $ 12,255,626

     The Consolidated Statement of Changes in Net Position presents the accounting items
     that caused the net position section of the balance sheet to change since the beginning of
     the fiscal year. The statement comprises two major components: Unexpended
     Appropriations and Cumulative Results of Operations.

     There was only a small change in the unexpended appropriations from FY 2004 to FY
     2005. Unexpended Appropriations decreased by $ 8 million or less than 1 % from FY
     2004 to FY 2005.

     Cumulative Results of Operations amount to $ 760 million as of September 30, 2005, an
     increase of 15% from the $660 million balance a year earlier. This balance is the
     cumulative difference, for all previous fiscal years through 2005, between funds available
     to USIAD from all financing sources and the net cost of USAID.



                                                                                               28

Unaudited                                                                             APPENDIX IV

     The Combined Statement of Budgetary Resources provides information on how
     budgetary resources were made available to the Agency for the year and their status at
     fiscal year-end. For the year, USAID had total budgetary resources of $14.8 billion, an
     increase of 21 % from the 2004 level. Budget authority of $11 billion, consisted of $10.1
     billion for appropriations and $590 million in net appropriation transfers. USAID
     incurred obligations of $10.5 billion for the year, a 14% decrease from the $9.2 billion of
     obligations incurred during 2004.

     Table 6 below, reflects the funds that the Agency received during 2005.

     Where the Funds Come From (Dollars in                 Dollar Amount
     Thousands)
     Appropriations, Transfers and Borrowing                      $11,020,051
     Authority
     Unobligated Carry Over Balances (Net)                          2,574,785
     Other                                                          1,227,450
     Total                                                        $14,822,286


     The Combined Statement of Financing reconciles the resources available to the Agency
     to finance operations with the net costs of operating the Agency’s programs. Some
     operating costs, such as depreciation, do not require direct financing sources.

     Limitations to the Financial Statements
     The financial statements have been prepared to report the financial position and results of
     operations of USAID, pursuant to the requirements of 31 U.S.C. 3515(b). While the
     statements have been prepared from the books and records of USAID, in accordance with
     generally accepted accounting principles (GAAP) for Federal entities and the formats
     prescribed by the Office of Management and Budget (OMB), the statements are in
     addition to the financial reports used to monitor and control budgetary resources which
     are prepared from the same books and records. The statements should be read with the
     realization that USAID is a component of the U.S. Government, a sovereign entity.




                                                                                             29

                                                                                                                     Appendix V




FINANCIAL STATEMENTS
                                                  U.S. Agency for International Development
                                                  CONSOLIDATED BALANCE SHEET
                                                     As of September 30, 2005 and 2004
                                                            (Dollars in Thousands)

                                                                                              FY 2005       FY 2004 Restated

   ASSETS
   Intragovernmental
           Fund Balance with Treasury (Note 2)                                           $     17,503,843     $    15,854,926
           Accounts Receivable, Net (Note 3)                                                     823,246            1,031,168
           Other Assets (Note 4)                                                                  30,575              30,920
        Total Intragovernmental                                                                18,357,664          16,917,014


           Cash and Other Monetary Assets (Note 5)                                               283,002             257,201
           Accounts Receivable, Net (Note 3)                                                      79,617              69,800
           Loans Receivable, Net (Note 6)                                                       5,100,249           6,108,252
           Inventory and Related Property (Note 7)                                                44,122              35,764
           General Property, Plant, and Equipment, Net (Notes 8 and 9)                            96,172              81,954
           Advances and Prepayments (Note 4)                                                     749,993             559,686
     Total Assets                                                                             24,710,819          24,029,671


   LIABILITIES (Note 16)
        Intragovernmental
           Accounts Payable (Note 10)                                                             24,232              29,523
           Debt (Note 11)                                                                        422,602             111,081
           Due to U.S.Treasury (Note 11)                                                        5,311,661           6,033,925
           Other Liabilities (Notes 12, 13, and 14)                                               30,510             420,574
        Total Intragovernmental                                                                 5,789,005           6,595,103


        Accounts Payable (Note 10)                                                              3,180,592           2,343,623
        Loan Guarantee Liability (Note 6)                                                       1,562,485           1,039,937
        Federal Employees and Veteran's Benefits (Note 14)                                        23,726              24,523
        Other Liabilities (Notes 12 and 13)                                                      390,335             353,750
        Total Liabilities                                                                      10,946,143          10,356,936


        Commitments and Contingencies (Note 15)


     NET POSITION
        Unexpended Appropriations                                                              13,004,174          13,012,242
        Cumulative Results of Operations                                                         760,502             660,493
        Total Net Position                                                                     13,764,676          13,672,735


     Total Liabilities and Net Position                                                  $ 24,710,819         $ 24,029,671

The accompanying notes are an integral part of these statements.




                                                                                                                   Page 1 of 45

                                                                                                  Appendix V



                                           U.S. Agency for International Development
                                      CONSOLIDATED STATEMENT OF NET COST
                                       For the Years Ended September 30, 2005 and 2004
                                                     (Dollars in Thousands)

  Goal                                                                             FY 2005           FY 2004 Restated

  Regional Stability
     Total Costs                                                               $      784,590          $    677,683
     Less Earned Revenues                                                               (624)                 (1,271)
     Net Program Costs                                                                783,966               676,412

  Counterterrorism
     Total Costs                                                                      887,866               134,154
     Less Earned Revenues                                                               (413)                   ( 54)
     Net Program Costs                                                                887,452               134,100

  International Crime and Drugs
     Total Costs                                                                      217,697                79,842
     Less Earned Revenues                                                               (385)                  (295)
     Net Program Costs                                                                217,311                79,547

  Democracy and Human Rights
     Total Costs                                                                    1,196,972              1,326,682
     Less Earned Revenues                                                              (5,015)                (3,789)
     Net Program Costs                                                              1,191,958              1,322,893

  Economic Prosperity and Security
     Total Costs                                                                    3,942,326              3,510,131
     Less Earned Revenues                                                              (7,522)               (14,339)
     Net Program Costs                                                              3,934,804              3,495,792

  Social and Environmental Issues
     Total Costs                                                                    4,297,366              4,535,321
     Less Earned Revenues                                                             (66,525)               (66,842)
     Net Program Costs                                                              4,230,840              4,468,479

  Humanitarian Response
     Total Costs                                                                    1,188,454               742,443
     Less Earned Revenues                                                            (193,809)               (66,133)
     Net Program Costs                                                                994,645               676,310

  Management and Organizational Excellence
     Total Costs                                                                       14,686                48,071
     Less Earned Revenues                                                                 (37)                 (424)
     Net Program Costs                                                                 14,649                47,647

  Public Diplomacy and Public Affairs
     Total Costs                                                                             -               35,724
     Less Earned Revenues                                                                    -                 (177)
     Net Program Costs                                                                       -               35,547
  Net Costs of Operations (Notes 17 and 18)                                    $ 12,255,626            $ 10,936,727



The accompanying notes are an integral part of these statements.

                                                                                                 Page 2 of 45
                                                                                                                               Appendix V


                                       U.S. Agency for International Development

                           CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION

                                   For the Years Ended September 30, 2005 and 2004

                                                 (Dollars in Thousands)


                                                                                 FY 2005                          FY 2004 Restated
                                                                    Cumulative                             Cumulative
                                                                      Results         Unexpended             Results         Unexpended
                                                                   of Operations     Appropriations       of Operations     Appropriations
   Beginning Balances                                              $     660,493       $ 13,395,387       $     714,476      $ 11,777,877
   Prior period adjustments (Note 19)                                          –           (383,145)                  –                 –
   Beginning Balances, as adjusted                                       660,493           13,012,242           714,476        11,777,877


      Budgetary Financing Sources:
        Appropriations Received                                                –           10,048,521                 –         9,186,373
         Appropriations transferred-in/out                                     –            2,070,251                  –        2,122,641
         Other adjustments (recissions, etc)                                   –            (1,061,395)               –           (49,538)
         Appropriations used                                           11,065,445          (11,065,445)       10,025,111      (10,025,111)
         Nonexchange revenue                                                   –                     –                –                 –
         Donations and forfeitures of cash and cash equivalents          109,782                     –           83,683                 –
         Transfers-in/out without reimbursement                         1,165,437                    –          763,675                 –
         Other budgetary financing sources                                     –                     –                –                 –


      Other Financing Sources:
        Transfers-in/out without reimbursement                             (1,823)                   –            1,823                 –
         Imputed financing from costs absorbed by others                  16,794                     –             8,452                –
      Total Financing Sources                                          12,355,635               (8,068)       10,882,744        1,234,365
      Net Cost of Operations                                           12,255,626                    –        10,936,727                –
      Net Change                                                         100,009                (8,068)          (53,983)       1,234,365
   Ending Balance                                                  $    760,502        $13,004,174        $    660,493       $13,012,242




The accompanying notes are an integral part of these statements.


                                                                                                                              Page 3 of 45
                                                                                                                     Appendix V
                                            U.S. Agency for International Development

                                   COMBINED STATEMENT OF BUDGETARY RESOURCES

                                        For the Years Ended September 30, 2005 and 2004

                                                      (Dollars in Thousands)


                                                                             FY 2005                             FY 2004 Restated
                                                                                  Credit Program                           Credit Program
                                                                 Budgetary           Financing          Budgetary             Financing

  Budgetary Resources
  Budget Authority
        Appropriations Received                              $      10,116,585         $           –    $     9,260,278     $            –
        Borrowing Authority (Note 20)                                    2,000               310,947                 –                   –
        Net Transfers                                                 590,519                      –          (524,133)                  –
        Other                                                                –                     –                 –                   –
     Total Budget Authority                                         10,709,104               310,947          8,736,145                  –
  Unobligated Balance:
        Beginning of Period                                          2,437,323              1,001,713         2,288,520             981,619
        Net Transfers, Actual                                        (864,251)                     –            96,959                   –
     Total Unobligated Balance                                       1,573,072              1,001,713         2,385,479             981,619
  Spending Authority from Offsetting Collections:
     Earned
        Collected                                                    1,443,194               421,647           906,735              218,325
        Receivable from Federal Sources                                   351                      –              ( 237)                 –
     Change in Unfilled Customer Orders
        Advance Received                                                     –                     –             4,594                   –
        Anticipated for Rest of Year, Without Advances                   3,021                     –                 –                   –
     Subtotal                                                        1,446,566               421,647           911,092              218,325
  Recoveries of Prior Year Obligations                               1,138,496                     –           140,910                3,955
  Permanently Not Available                                         (1,779,259)                    –        ( 1,079,492)             (1,184)
  Total Budgetary Resources                                        13,087,979              1,734,307        11,094,134          1,202,715

  Status of Budgetary Resources:
  Obligations Incurred (Note 20)
        Direct                                                       9,756,791               709,518          8,971,305             234,102
        Reimbursible                                                    59,212                     –                  –                   –
     Subtotal                                                        9,816,003               709,518          8,971,305             234,102
  Unobligated Balance, Available                                     3,262,407              1,024,789         2,090,924             968,613
  Unobligated Balance, Unavailable                                       9,569                     –            31,905                   –
  Total Status of Budgetary Resources                              13,087,979              1,734,307        11,094,134          1,202,715

  Relationship of Obligations to Outlays:
  Obligated Balance, Net, Beginning of Period (Note 20)             10,824,552                11,031         10,574,841               1,597
  Obligated Balance Transferred, Net                                         –                     –                 –                   –
  Obligated Balance, Net, End of Period:
     Accounts Receivable                                                (3,692)                    –            ( 3,691)                 –
     Unfilled Customer Orders From Federal Sources                      (7,614)                    –             (4,593)                 –
     Undelivered Orders                                              7,884,272                 2,768          9,559,497              10,604
     Accounts Payable                                                2,402,758                   520          1,273,339                427
  Outlays:
     Disbursements                                                   8,275,519               717,260          8,482,569             220,712
     Collections                                                    (1,441,693)             (421,647)       ( 1,122,466)            ( 2,595)
     Subtotal                                                        6,833,826               295,613          7,360,103             218,117
  Less: Offsetting Receipts                                          (195,568)                     –                 –                   –
  Net Outlays                                                $      6,638,258          $    295,613     $ 7,360,103         $    218,117

The accompanying notes are an integral part of these statements.

                                                                                                                   Page 4 of 45
                                                                                                                      Appendix V
                                                   U.S. Agency for International Development
                                             CONSOLIDATED STATEMENT OF FINANCING
                                               For the Years Ended September 30, 2005 and 2004
                                                             (Dollars in Thousands)

                                                                                               FY 2005        FY 2004 Restated

  Resources Used to Finance Activities:
     Budgetary Resources Obligated
        Obligations Incurred (Note 20)                                                     $   10,525,521       $   11,408,435
           Appropriations transferred to/from other agencies (net)                              2,517,433            1,206,427
           Total Obligations Incurred (Note 21)                                                13,042,954           12,614,862
           Less: Spending authority from offsetting collections and recoveries (Note 20)        (3,006,709)         ( 1,274,282)
                  Spending authority transferred to/from other agencies (net)                     680,727              172,331
           Total spending authority from offsetting collections and recoveries                 ( 2,325,982)         ( 1,446,613)
           Less: Offsetting Receipts                                                              195,568                    –
        Net Obligations                                                                        10,912,540           11,168,250
     Other Resources
        Donated and Credit Program Revenue                                                          (1,823)             ( 1,823)
        Imputed Financing From Costs Absorbed by Others                                            16,794                8,452
  Total Resources Used to Finance Activities                                                   10,927,511           11,174,879


  Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
       ordered but not yet provided                                                               468,419           ( 1,013,892)
     Resources that fund expenses recognized in prior periods                                       (5,731)              3,163
     Credit program collections which increase liabilities for loan guarantees
       or allowances for subsidy                                                                1,283,309            1,070,144
     Resources that finance the acquisition of assets                                             (47,894)              20,159
        Other                                                                                    (718,893)            (121,900)
  Total Resources Used to Finance items not part of net cost of operations                        979,210             ( 42,326)
  Total Resources Used to Finance Net Cost of Operations                                       11,906,721           11,132,553


  Components of the Net Cost of Operations that will not Require or
     Generate Resources in the Current Period:
     Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                                          3,475                1,242
        Upward/Downward reestimates of credit subsidy expense                                     320,093             (208,678)
        Increase in exchange revenue receivable from the public                                          –                   –
     Total Components Requiring or Generating Resources in Future Periods                         323,568             (170,405)
     Components not Requiring or Generating Resources
        Depreciation and Amortization                                                              22,754               15,186
        Revaluation of assets or liabilities                                                          810                 (805)
        Other                                                                                       1,773               ( 2,771)
     Total Components not Requiring or Generating Resources                                        25,337             ( 25,421)
  Total components of net cost of operations that will not require or
  generate resources in the current period                                                        348,905             (195,826)

  Net Cost of Operations                                                                   $ 12,255,626         $ 10,936,727




The accompanying notes are an integral part of these statements.



                                                                                                                    Page 5 of 45
                                                                                                              Appendix V





USAID FY 2005 FOOTNOTES TO THE
FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
 A. BASIS OF PRESENTATION
                                         Iraq Relief and Reconstruction Fund

These financial statements report USAID’s financial position and   This fund supports necessary expenses related to providing
results of operations. They have been prepared using USAID’s       humanitarian assistance in and around Iraq and to carrying out
books and records in accordance with Agency accounting             the purposes of the Foreign Assistance Act of 1961 for
policies, the most significant of which are summarized in this     rehabilitation and reconstruction in Iraq. These include costs of:
note. The statements are presented in accordance with the          (1) water/sanitation infrastructure; (2) feeding and food
guidance and requirements of the recently issued Office of         distribution; (3) supporting relief efforts related to refugees,
Management and Budget (OMB) Circular A-136, Financial              internally displaced persons, and vulnerable individuals, including
Reporting Requirements, which incorporates and updates Bulletin    assistance for families of innocent Iraqi civilians who suffer losses
01-09, Form and Content of Agency Financial Statements, and        as a result of military operations; (4) electricity; (5) healthcare; (6)
the Government Management Reform Act of 1994.                      telecommunications; (7) economic and financial policy; (8)
                                                                   education; (9) transportation; (10) rule of law and governance;
USAID accounting policies follow generally accepted accounting     (11) humanitarian de-mining; and (12) agriculture.
principles for the Federal government, as recommended by the
Federal Accounting Standards Advisory Board (FASAB). The           Economic Support Fund
FASAB has been recognized by the American Institute of             Programs funded through this account provide economic
Certified Public Accountants (AICPA) as the official accounting    assistance to select countries in support of efforts to promote
standard set for the Federal government. These standards have      stability and U.S. security interests in strategic regions of the
been agreed to, and published by the Director of the Office of     world.
Management and Budget, the Secretary of the Treasury, and the
Comptroller General.                                               Development Assistance

                                                                   This program provides economic resources to developing
                                                                   countries with the aim of bringing the benefits of development
 B. REPORTING ENTITY
                                              to the poor. The program promotes broad-based, self-sustaining
Established in 1961 by President John F. Kennedy, USAID is the     economic growth and supports initiatives intended to stabilize
independent U.S. Government agency that provides economic          population growth, protect the environment and foster increased
development and humanitarian assistance to advance United          democratic participation in developing countries. The program is
States economic and political interests overseas.                  concentrated in those areas in which the United States has
                                                                   special expertise and which promise the greatest opportunity for
PROGRAMS                                                           the poor to better their lives.
The statements present the financial activity of various           Assistance for the New Independent States of the
programs and accounts managed by USAID. The programs               Former Soviet Union
include the Iraq Relief and Reconstruction Fund, Economic
Support Fund, Development Assistance, Assistance for the           This account provides funds for a program of assistance to the
New Independent States of the Former Soviet Union, Special         independent states that emerged from the former Soviet Union.
Assistance Initiatives, International Disaster Assistance, Child   These funds support U.S. foreign policy goals of consolidating
Survival and Disease, Transition Initiatives, and Direct and       improved U.S. security; building a lasting partnership with the
Guaranteed Loan Programs. This classification is consistent with   New Independent States; and providing access to each other’s
the Budget of the United States.                                   markets, resources, and expertise.



                                                                                                            Page 6 of 45

                                                                                                                         Appendix V




Special Assistance Initiatives                                        value” place the risk of devaluation on the U.S. Government,
                                                                      and are recorded in the foreign currency of the borrower
This program provides funds to support special assistance
activities. The majority of funding for this program was for          Urban and Environmental Program
democratic and economic restructuring in Central and Eastern
European countries consistent with the objectives of the              The Urban and Environmental (UE) program, formerly the
Support for East European Democracy (SEED) Act. All SEED              Housing Guarantee Program, extends guaranties to U.S.
Act programs support one or more of the following strategic           private investors who make loans to developing countries to
objectives: promoting broad-based economic growth with an             assist them in formulating and executing sound housing and
emphasis on privatization, legal and regulatory reform and            community development policies that meet the needs of
support for the emerging private sector; encouraging democratic       lower income groups.
reforms; and improving the quality of life including protecting the   Micro and Small Enterprise Development Program
environment and providing humanitarian assistance.
                                                                      The Micro and Small Enterprise Development (MSED)
International Disaster Assistance                                     Program supports private sector activities in developing
                                                                      countries by providing direct loans and loan guarantees to
Funds for the International Disaster Assistance Program provide
                                                                      support local micro and small enterprises. The MSED
relief, rehabilitation, and reconstruction assistance to foreign
                                                                      program had one new loan guarantee for FY 2004. Although
countries struck by disasters such as famines, floods, hurricanes
                                                                      the MSED program is still active, the bulk of USAID’s new
and earthquakes. The program also provides assistance in
                                                                      loan guarantee activity is handled through the Development
disaster preparedness, and prevention and mitigation.
                                                                      Credit Authority (DCA) program.
Child Survival and Disease
                                                                      Israeli Loan Guarantee Program
This program provides economic resources to developing
                                                                      Congress enacted the Israeli Loan Guarantee Program in
countries to support programs to improve infant and child
                                                                      Section 226 of the Foreign Assistance Act to support the
nutrition, with the aim of reducing infant and child mortality
                                                                      costs for immigrants resettling to Israel from the former
rates; to reduce HIV transmission and the impact of the
                                                                      Soviet Union, Ethiopia, and other countries. Under this
HIV/AIDS pandemic in developing countries; to reduce the
                                                                      program, the U.S. Government guaranteed the repayment of
threat of infectious diseases of major public health importance
                                                                      up to $10 billion in loans from commercial sources, to be
such as polio, and malaria; and to expand access to quality basic
                                                                      borrowed in $2 billion annual increments. Borrowing was
education for girls and women.
                                                                      completed under the program during Fiscal Year 1999, with
Transition Initiatives                                                approximately $9.2 billion being guaranteed. Guarantees are
                                                                      made by USAID on behalf of the U.S. Government, with
This account funds humanitarian programs that provide post-           funding responsibility and basic administrative functions
conflict assistance to victims of natural and man-made disasters.     guarantees for Israel, not to exceed $9 billion and $1.3 billion
Until FY 2001, this type of assistance was funded under the           in guarantees were resting with USAID. In FY 2003, Congress
International Disaster Assistance account.                            authorized a second portfolio of loan issued under this
Direct and Guaranteed Loans:                                          portfolio during FY 2003.

   Direct Loan Program                                                Ukraine Guarantee Program

   These loans are authorized under Foreign Assistance Acts,          The Ukraine Export Credit Insurance Program was
   various predecessor agency programs, and other foreign             established with the support of the Export-Import Bank of
   assistance legislation. Direct Loans are issued in both U.S.       the U.S. to assist Ukrainian importers of American goods. The
   dollars and the currency of the borrower. Foreign currency         program commenced operations in Fiscal Year 1996 and
   loans made “with maintenance of value” place the risk of           expired in Fiscal Year 1999. The Ukraine Financing Account
   currency devaluation on the borrower, and are recorded in          was closed out in FY 2002.
   equivalent U.S. dollars. Loans made “without maintenance of




                                                                                                                       Page 7 of 45

                                                                                                              Appendix V



   Development Credit Authority                                       The capital investment fund contains no year funds to provide
                                                                      the Agency with greater flexibility to manage investments in
   The first obligations for USAID’s new Development Credit           technology systems and facility construction that the annual
   Authority (DCA) were made in FY 1999. DCA allows                   appropriation for Operating Expenses does not allow.
   missions and other offices to use loans and loan guarantees
   to achieve their development objectives when it can be             Deposit funds are established for (1) amount received for which
   shown that: 1) the project generates enough revenue to             USAID is acting as a fiscal agent or custodian, (2) unidentified
   cover the debt service including USAID fees, 2) there is at        remittances, (3) monies withheld from payments for goods or
   least 50% risk-sharing with a private-sector institution, and 3)   services received, and (4) monies held waiting distribution on the
   the DCA guarantee addresses a financial market failure in-         basis of legal determination.
   country and does not “crowd-out” private sector lending.
   DCA can be used in any sector and by any USAID operating
   unit whose project meets the DCA criteria. DCA projects             C. BASIS OF ACCOUNTING

   are approved by the Agency Credit Review Board and the
   Chief Financial Officer.                                           Transactions are recorded on both an accrual and budgetary
                                                                      basis. Under the accrual basis, revenues are recognized when
   Loan Guarantees to Egypt Program                                   earned and expenses are recognized when a liability is incurred,
                                                                      without regard to receipt or payment of cash. Budgetary
   The Loan Guarantees to Egypt Program was established               accounting facilitates compliance with legal constraints on, and
   under the Emergency Wartime Supplemental Appropriations            controls of, the use of federal funds.
   Act, 2003. Under this program, the U.S. Government was
   authorized to issue an amount not to exceed $2 billion in          The accompanying Balance Sheet, Statement of Net Cost, and
   loan guarantees to Egypt during the period beginning March         Statement of Changes in Net Position have been prepared on an
   1, 2003 and ending September 30, 2005. $1.25 billion in new        accrual basis. The Statement of Budgetary Resources has been
   loan guarantees were issued in fiscal year 2005 before the         prepared in accordance with budgetary accounting rules. Finally,
   expiration of the program.                                         the Statement of Financing has been prepared to reconcile
                                                                      budgetary to financial (proprietary) accounting information.
FUND TYPES

The statements include the accounts of all funds under USAID’s         D. BUDGETS AND BUDGETARY
control. Most of the fund accounts relate to general fund
                                                                       ACCOUNTING
appropriations. USAID also has special fund, revolving fund, trust
fund, deposit funds, capital investment fund, receipt account, and    The components of USAID’s budgetary resources include current
budget clearing accounts.                                             budgetary authority (that is, appropriations and borrowing
                                                                      authority) and unobligated balances remaining from multi-year
General fund appropriations and the Special fund are used to
                                                                      and no-year budget authority received in prior years. Budget
record financial transactions under Congressional appropriations
                                                                      authority is the authorization provided by law to enter into
or other authorization to spend general revenue.
                                                                      financial obligations that result in immediate or future outlays of
Revolving funds are established by law to finance a continuing        federal funds. Budgetary resources also include reimbursement
cycle of operations, with receipts derived from such operations       and other income (that is, spending authority from offsetting
usually available in their entirety for use by the fund without       collections credited to an appropriation of fund account) and
further action by Congress.                                           adjustments (that is, recoveries of prior year obligations).

Trust funds are credited with receipts generated by the terms of      Unobligated balances associated with appropriations that expire
the trust agreement or statute. At the point of collection, these     at the end of the fiscal year remain available for obligation
receipts are unavailable, depending upon statutory requirements,      adjustments, but not new obligations, until that account is
or available immediately.                                             canceled. When accounts are canceled five years after they
                                                                      expire, amounts are not available for obligations or expenditure
                                                                      for any purpose and are returned to Treasury.




                                                                                                            Page 8 of 45

                                                                                                                           Appendix V



Pursuant to Section 511 of USAID’s Appropriations Act for               G. FOREIGN CURRENCY

certain purposes under the Foreign Assistance Act of 1961, as
amended, shall remain available for obligation for an extended         The Direct Loan Program has foreign currency funds, which are
period if such funds are initially obligated within their initial      used to disburse loans in certain countries. Those balances are
period of availability.                                                reported at the U.S. dollar equivalents using the exchange rates
                                                                       prescribed by the U.S. Treasury. A gain or loss on translation is
                                                                       recognized for the change in valuation of foreign currencies at
 E. REVENUES AND OTHER FINANCING                                       year-end. Additionally, some USAID host countries contribute
                                                                       funds for the overhead operation of the host mission and the
 SOURCES
                                                                       execution of USAID programs. These funds are held in trust and
USAID receives the majority of its funding through congressional       reported in U.S. dollar equivalents on the balance sheet and
appropriations --annual, multi-year, and no-year appropriations -­     statement of net costs.
that may be used within statutory limits. Appropriations are
recognized as revenues at the time the related program or
administrative expenses are incurred. Appropriations expended           H. ACCOUNTS RECEIVABLE

for capitalized property and equipment are not recognized as
expenses. In addition to funds warranted directly to USAID, the        Accounts receivable consist of amounts due mainly from foreign
agency also receives allocation transfers from the U.S.                governments but also from other Federal agencies and private
Department of Agriculture (USDA) Commodity Credit                      organizations. USAID regards amounts due from other Federal
Corporation, the Executive Office of the President, and the            agencies as 100 percent collectible. The Agency establishes an
Department of State.                                                   allowance for uncollectible accounts receivable for non-loan or
                                                                       revenue generating sources that have not been collected for a
Additional financing sources for USAID’s various credit programs       period of over one year.
and trust funds include amounts obtained through collection of
guaranty fees, interest income on rescheduled loans, penalty
interest on delinquent balances, permanent indefinite borrowing
                                                                        I. LOANS RECEIVABLE

authority from U.S.Treasury, proceeds from the sale of overseas
real property acquired by USAID, and advances from foreign             Loans are accounted for as receivables after funds have been
governments and international organizations.                           disbursed. For loans obligated before October 1, 1991 (the pre-
                                                                       credit reform period), loan principal, interest, and penalties
Revenues are recognized as financing sources to the extent that
                                                                       receivable are reduced by an allowance for estimated
they were payable to USAID from other agencies, other
                                                                       uncollectible amounts. The allowance is estimated based on a
governments and the public in exchange for goods and services
                                                                       net present value method prescribed by OMB that takes into
rendered to others. Imputed revenues are reported in the
                                                                       account country risk and projected cash flows.
financial statements to offset the imputed costs.
                                                                       For loans obligated on or after October 1, 1991, the loans
                                                                       receivable are reduced by an allowance equal to the net present
 F. FUND BALANCES WITH THE U.S.                                        value of the cost to the USG of making the loan. This cost,
 TREASURY                                                              known as “subsidy”, takes into account all cash inflows and
                                                                       outflows associated with the loan, including the interest rate
Cash receipts and disbursements are processed by the U.S.              differential between the loans and Treasury borrowing, the
Treasury. The fund balances with Treasury are primarily                estimated delinquencies and defaults net of recoveries, and
appropriated funds that are available to pay current liabilities and   offsets from fees and other estimated cash flows. This allowance
finance authorized purchase commitments, but they also include         is re-estimated when necessary and changes reflected in the
revolving, deposit, and trust funds.                                   operating statement.

                                                                       Loans have been made in both U.S. dollars and foreign
                                                                       currencies. Loans extended in foreign currencies can be with or




                                                                                                                         Page 9 of 45

                                                                                                               Appendix V



without “Maintenance of Value” (MOV). Those with MOV place             L. PROPERTY, PLANT AND EQUIPMENT

the currency exchange risk upon the borrowing government;
those without MOV place the risk on USAID. Foreign currency           USAID capitalizes all property, plant and equipment that has an
exchange gain or loss is recognized on those loans extended           acquisition cost of $25,000 or greater and a useful life of two
without MOV, and reflected in the net credit programs                 years or more. Acquisitions that do not meet these criteria are
receivable balance.                                                   recorded as operating expenses. Assets are capitalized at
                                                                      historical cost and depreciated using the straight-line method.
Credit program receivables also include origination and annual        Real property is depreciated over 20 years, nonexpendable
fees on outstanding guarantees, interest on rescheduled loans         personal property is depreciated over 3 to 5 years, and capital
and late charges. Claims receivables (subrogated and                  leases are depreciated according to the terms of the lease. The
rescheduled) are due from foreign governments as a result of          Agency operates land, buildings, and equipment that are provided
defaults for pre-1992 guaranteed loans. Receivables are stated        by the General Services Administration. Rent for this property is
net of an allowance for uncollectible accounts, determined using      expensed. Internal use software that has development costs of
an OMB approved net present value default methodology.                $300,000 or greater is capitalized.       Deferred maintenance
While estimates of uncollectible loans and interest are made          amounts are immaterial with respect to the financial statements.
using methods prescribed by OMB, the final determination as to
whether a loan is collectible is also affected by actions of other
U.S. Government agencies.                                              M. LIABILITIES


                                                                      Liabilities represent the amount of monies or other resources
                                                                      that are likely to be paid by USAID as the result of transactions
 J. ADVANCES AND PREPAYMENTS
                                         or events that have already occurred. However, no liability can
Funds disbursed in advance of incurred expenditures are               be paid by the Agency without an appropriation or borrowing
recorded as advances. Most advances consist of funds disbursed        authority. Liabilities for which an appropriation has not been
under letters of credit to contractors and grantees. The              enacted are therefore classified as liabilities not covered by
advances are liquidated and recorded as expenses upon receipt         budgetary resources (unfunded liabilities), and there is no
of expenditure reports from the recipients.                           certainty that the appropriations will be enacted. Also, these
                                                                      liabilities can be abrogated by the U.S. Government, acting in its
                                                                      sovereign capacity.

 K. INVENTORY AND RELATED PROPERTY


USAID’s inventory and related property is comprised of                 N. LIABILITIES FOR LOAN GUARANTEES

operating materials and supplies. Some operating materials and
supplies are held for use and consist mainly of computer paper        The Credit Reform Act (CRA) of 1990, which became effective on
and other expendable office supplies not in the hands of the user.    October 1, 1991, has significantly changed the manner in which
USAID also has materials and supplies in reserve for foreign          USAID’s loan programs finance their activities. The main purpose
disaster assistance stored at strategic sites around the world.       of CRA was to more accurately measure the cost of Federal credit
These consist of tents, vehicles, and water purification units. The   programs and to place the cost of such programs on a budgetary
Agency also has birth control supplies stored at several sites.       basis equivalent to other Federal spending. Consequently,
                                                                      commencing in fiscal 1992, USAID cannot make new loans or
USAID’s office supplies are deemed items held for use because         guarantees without an appropriation available to fund the cost of
they are tangible personal property to be consumed in normal          making the loan or guarantee.This cost is known as “subsidy”.
operations. Agency supplies held in reserve for future use are
not readily available in the market, or there is more than a          For USAID’s loan guarantee programs, when guarantee
remote chance that the supplies will be needed, but not in the        commitments are made, an obligation for subsidy cost is
normal course of operations.Their valuation is based on cost and      recorded in the program account. This cost is based on the net
they are not considered “held for sale”. USAID has no supplies        present value of the estimated net cash outflows to be paid by
categorizable as excess, obsolete, or unserviceable operating         the Program as a result of the loan guarantees, except for
materials and supplies                                                administrative costs, less the net present value of all cash inflows



                                                                                                           Page 10 of 45

                                                                                                                            Appendix V



to be generated from those guarantees. When the loans are            Federal employee benefit costs paid by OPM and imputed by
disbursed, the subsidy cost is disbursed from the program            USAID are reported on the Statement of Financing and the
account to a financing account.                                      Statement of Net Cost.

For loan guarantees made before the CRA (pre-1992), the
liability for loan guarantees represents an unfunded liability.
                                                                      Q. NET POSITION

Footnote 6 presents the unfunded amounts separate from the
post-1991 liabilities. The amount of unfunded liabilities also       Net position is the residual difference between assets and
represents a future funding requirement for USAID. The liability     liabilities. It is composed of unexpended appropriations and
is calculated using a reserve methodology that is similar to OMB     cumulative results of operationss.
prescribed method for post-1991 loan guarantees.
                                                                        Unexpended appropriations are the portion of the appropri­
                                                                        ations represented by undelivered orders and unobligated
 O. ANNUAL, SICK, AND OTHER LEAVE
                                      balancess.

                                                                        Cumulative results of operations are also part of net position.
Annual leave is accrued as it is earned and the accrual is reduced
                                                                        This account reflects the net difference between (1) expenses
as leave is taken. Each year, the balance in the accrued annual
                                                                        and losses and (2) financing sources, including appropriations,
leave account is adjusted to reflect current pay rates. To the
                                                                        revenues and gains, since the inception of the activity.
extent that current or prior year appropriations are not available
to fund annual leave earned but not taken, funding will be
obtained from future financing sources. Sick leave and other
types of leave are expensed as taken.                                  R. NON-ENTITY ASSETS


                                                                     Non-entity fund balances are amounts in Deposit Fund accounts.
                                                                     These include such items as: funds received from outside sources
 P. RETIREMENT PLANS AND POST                                        where the government acts as fiscal agent, monies the
 EMPLOYMENT BENEFITS                                                 government has withheld awaiting distribution based on legal
                                                                     determination, and unidentified remittances credited as suspense
USAID recognizes its share of the cost of providing future
                                                                     items outside the budget. For USAID, non-entity assets are
pension benefits to eligible employees over the period of time
                                                                     minimal in amount and as reflected in Note 3, composed solely
the employees provide the related services. The pension
                                                                     of accounts receivables, net of allowances.
expense recognized in the financial statements equals the
current service cost for USAID employees for the accounting
period less the amount contributed by the employees. The
measurement of the service cost requires the use of an actuarial       S. AGENCY COSTS

cost method and assumptions. OPM administers these benefits          USAID costs of operations are comprised of program and
and provides the factors that USAID applies to report the cost.      operating expenses. USAID/Washington program expenses by
The excess of the pension expense over the amount                    goal are obtained directly from Phoenix, the Agency general
contributed by USAID and employees represents the amount             ledger. Mission related program expenses by goal area are
being financed directly through the Civil Service Retirement and     obtained from the Mission Accounting and Control system
Disability Fund administered by OPM. This cost is considered         (MACS). A cost allocation model is used to distribute operating
imputed cost to USAID.                                               expenses, including Management Bureau, Global Development
USAID recognizes a current-period expense for the future cost        Alliance,Trust Funds and Support Offices costs to specific goals.
of post retirement health benefits and life insurance for its        Expenses related to Credit Reform and Revolving Funds are
employees while they are still working. USAID accounts for and       directly applied to specific agency goals based on their objectives.
reports this expense in its financial statements in a manner
similar to that used for pensions, with the exception that
employees and USAID do not make contributions to fund these
future benefits.




                                                                                                                        Page 11 of 45

                                                                                                                 Appendix V




 T. RECLASSIFICATIONS
                                                    On the Statement of Financing, the line item Other Resources,
                                                                          Donated and Credit Program Revenue was renamed to
During FY 2005, financial statements were reviewed to ensure              Transfers In without Reimbursement. Because of this change,
proper form and content. As a result, the following                       Credit Program Revenue is now shown in Resources Used to
reclassifications and or changes were made to the Statements of           Finance Items not Part of the Net Cost of Operations-Other.
Budgetary Resources and Financing to improve the presentation             For comparative purposes, the FY 2004 amount of $121 million
of information:                                                           for Credit Program Revenue was also reclassified. Similarly, the
                                                                          line item Components Requiring or Generating Resources for
A fund shown as Program on the Statement of Budgetary
                                                                          Future Periods-Increase in Exchange Revenue Receivable from
Resources in FY 2004 was reclassified as Allocations in FY 2005.
                                                                          the Public was reclassified as Components not Requiring or
To ensure comparability of the statements, the FY 2004 Total
                                                                          Generating Resources-Other. The corresponding amounts in FY
Budgetary Resources and Status of Budgetary Resources was
                                                                          2004, of $37 million were also reclassified to ensure
decreased by $2,204 million, Net Outlays increased by $240
                                                                          comparability.
million, and Ending Obligations by $1,925 million. No other
statements are affected by this reclassification.




NOTE 2. FUND BALANCES WITH TREASURY
Fund Balances with Treasury as of September 30, 2005 and 2004             The Fund Balances with Treasury are available to pay accrued
consisted of the following:                                               liabilities and finance authorized commitments relative to goods,
                                                                          services, and benefits.

                Fund Balances with Treasury

                  (Dollars in Thousands)


  Fund Balances                             FY 2005          FY 2004

  Trust Funds                           $      36,747    $      33,255
  Revolving Funds                            2,760,473        1,435,616
  Appropriated Funds                        14,509,038       14,324,552
  Other Funds                                 197,585           61,503
  Total                                 $ 17,503,843     $ 15,854,926

  Status of Fund Balance:                   FY 2005          FY 2004

  Unobligated Balance
  Available                             $      11,064    $ 1,193,906
  Unavailable                                 911,884           18,142
  Obligated Balance Not Yet Disbursed       16,580,894       14,647,878
  Total                                 $ 17,503,843     $ 15,854,926




                                                                                                              Page 12 of 45

                                                                                                                                    Appendix V




NOTE 3. ACCOUNTS RECEIVABLE, NET
The primary components of USAID’s accounts receivable as of September 30, 2005 and 2004 are as follows:

                                                         Accounts Receivable, Net
                                                          (Dollars in Thousands)

                                                                         Receivable      Allowance     Receivable Net          Receivable Net
                                                                           Gross         Accounts           2005                    2004
  Entity
    Intragovernmental
        Appropriation Reimbursements from Federal Agencies               $        225         N/A          $        225         $        225
        Accounts Receivable from Federal Agencies Disbursing Authority        330,530         N/A               330,530              300,131
        Less Intra-Agency Receivables                                        (327,437)          –              (327,437)             (73,679)
        Receivable from USDA                                                  819,928         N/A               819,928              804,491
     Total Intragovernmental                                                 823,246          N/A              823,246              1,031,168
        Accounts Receivable                                                   81,245        (7,553)             73,692                 65,271
     Total Entity                                                            904,491        (7,553)            896,938              1,096,440
  Total Non-Entity                                                              6,234        (309)                5,925                4,528
  Total Receivables                                                      $ 910,725       $ (7,862)         $   902,863          $ 1,100,968




                               Reconciliation of Uncollectible Amounts (Allowance Accounts)

                                                   (Dollars in Thousands)


                                                                                                 FY 2005                        FY 2004

  Beginning Balance                                                                          $        7,193                $           9,501
  Additions                                                                                            986                             (341)
  Reductions                                                                                          (317)                           (1,967)
  Ending Balance                                                                             $        7,862                $           7,193




Entity intragovernmental accounts receivable consist of amounts          non-program related receivables such as overdue advances,
due from other U.S. Government agencies. No allowance has                unrecovered advances, audit findings, and any interest related to
been established for the intragovernmental accounts receivable,          these types of receivables. A 100 percent allowance for
which are considered to be 100 percent collectible. Disbursing           uncollectible amounts is estimated for accounts receivable due
Authority Receivable from USDA consists of obligational                  from the public which are more than one year past due.
authority from the U.S. Department of Agriculture’s Commodity            Accounts receivable from missions are collected and recorded to
Credit Corporation. The authority is for payment of                      the respective appropriation.
transportation costs incurred by USAID associated with the
                                                                         Interest receivable is calculated separately and there is no
shipment of Title II and III commodities; Farmer-to-Farmer
                                                                         interest included in the accounts receivable listed above.
Technical Assistance Programs; and for assistance to private
voluntary organizations, cooperatives, and international                 The accounts receivable, net, with the public for FY 2005 is
organizations. Collections against this receivable are realized          $79.6 million which consists of $73.7 million entity and
when USAID requests a transfer of funds from USDA to cover               $5.9 million non-entity. Account receivables with the public for
incurred expenses.                                                       FY 2004 was $69.8 million which consists of $65.3 million entity
                                                                         and $4.5 million non-entity.
All other entity accounts receivable consist of amounts managed
by missions or USAID/Washington. These receivables consist of



                                                                                                                               Page 13 of 45

                                                                                                            Appendix V




NOTE 4. OTHER ASSETS
Advances and Prepayments as of September 30, 2005 and 2004 consisted of the following:

                                                       Advances and Prepayments
                                                         (Dollars in Thousands)

                                                                                             FY 2005                  FY 2004
  Intragovernmental
     Advances to Federal Agencies                                                        $       30,575          $       30,920
  Total Intragovernmental                                                                        30,575                  30,920
     Advances to Contractors/Grantees                                                           678,230                 487,441
     Travel Advances                                                                              1,431                   2,480
     Advances to Host Country Governments and Institutions                                       46,732                  46,620
     Prepayments                                                                                 11,669                  11,108
     Advances, Other                                                                             11,932                  12,037
  Total with the Public                                                                         749,993                 559,686
  Total Advances and Prepayments                                                         $      780,568          $      590,606


Advances to Host Country Governments and Institutions               educational institutions and voluntary organizations. Other
represent amounts advanced by USAID missions to host country        Advances consist primarily of amounts advanced for living
governments and other in-country organizations, such as             quarters and home service.



NOTE 5. CASH AND OTHER MONETARY ASSETS
Cash and Other Monetary Assets as of September 30, 2005 and 2004 are as follows:

                                                   Cash and Other Monetary Assets
                                                        (Dollars in Thousands)

  Cash and Other Monetary Assets                                                             FY 2005                  FY 2004

     Imprest Fund- Headquarters                                                         $          407            $          280
     UE and Micro and Small Enterprise Fund Cash w/Fiscal Agent                                     50                          50
     Foreign Currencies                                                                         282,545                  256,871
  Total Cash and Other Monetary Assets                                                  $       283,002           $      257,201


USAID has imprest funds in various overseas locations. These        Foreign Currencies are related to Foreign Currency Trust Funds
funds are provided by the Department of State overseas U.S.         and this totaled to $282.5 million in FY 2005 and $256.9 million
Disbursing Officers to which USAID is liable for any shortages.     in FY 2004. USAID does not have any non-entity cash or other
USAID’s cumulative balance of the Department of State               monetary assets.
provided imprest funds was $1.5 million in FY 2005 and $4.6
million in FY 2004. These imprest funds are not included in
USAID’s Balance Sheet.




                                                                                                          Page 14 of 45

                                                                                                                                       Appendix V




NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES

USAID operates the following loan and/or loan guarantee                       associated with direct loans and guarantees, is required by the
programs:                                                                     Act to be recognized as an expense in the year in which the
                                                                              direct loan or guarantee is disbursed. Subsidy cost is calculated
   Direct Loan Program (Direct Loan)
                                                                              by agency program offices prior to obligation using a model
   Urban and Environmental Program (UE)                                       prescribed by the Office of Management and Budget (OMB).
                                                                              Subsidy relating to existing loans and guarantees is generally
   Micro and Small Enterprise Development Program (MSED)                      required to be reestimated on an annual basis to adjust for
                                                                              changes in risk and interest rate assumptions. Direct loans are
   Israel Loan Guarantee Program (Israel Loan)
                                                                              reported net of an allowance for this subsidy cost (allowance for
   Development Credit Authority Program (DCA)                                 subsidy). The subsidy costs associated with loan guarantees are
                                                                              reported as loan guarantee liability.
   Egypt Loan Guarantee Program
                                                                              An analysis of loans receivable, loan guarantees, liability for loan
Direct loans resulting from obligations made prior to FY 1992                 guarantees, and the nature and amounts of the subsidy costs
are reported net of allowance for estimated uncollectible loans.              associated with the loans and loan guarantees are provided in
Estimated losses from defaults on loan guarantees resulting from              the following sections.
obligations made prior to FY 1992 are reported as a liability.
                                                                              The following net loan receivable amounts are not the same as
The Credit Reform Act of 1990 prescribes an alternative method                the proceeds that USAID would expect to receive from selling
of accounting for direct loans and guarantees resulting from                  its loans. Actual proceeds may be higher or lower depending on
obligations made after FY 1991. Subsidy cost, which is the net                the borrower and the status of the loan.
present value of the cash flows (i.e. interest rates, interest
supplements, estimated defaults, fees, and other cash flows)

Summary of Loans Receivables, Net (Dollars in Thousands)                                                           FY 2005            FY 2004
Net Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method)                                       $     4,494,975    $     5,780,367
Net Direct Loans Obligated After FY 1991 (Present Value Method)                                                       335,572             32,248
Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method)                                       269,702            295,637
Total Loans Receivable, Net as reported on the Balance Sheet                                                  $     5,100,249    $     6,108,252



DIRECT LOANS


                                                                    Direct Loans
                                                               (Dollars in Thousands)

                                                                  Loans                                                          Value of Assets
                                                              Receivables        Interest     Allowance for                     Related to Direct
                      Loan Programs                               Gross         Receivable     Loan Losses                            Loans
   Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method) as of September 30, 2005:
   Direct Loans                                                $ 5,867,779      $ 316,253        $ 1,688,991                         $ 4,495,041
   MSED                                                                643             96                805                                (66)
   Total                                                                  $ 5,868,422        $ 316,349            $ 1,689,796        $ 4,494,975

   Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method) as of September 30, 2004:
   Direct Loans                                                $ 7,748,796      $ 296,481        $ 2,264,834                         $ 5,780,443
   MSED                                                                677             89                842                                (76)
   Total                                                                  $ 7,749,473        $ 296,570            $ 2,265,676        $ 5,780,367




                                                                                                                                 Page 15 of 45

                                                                                                         Appendix V




                                                 Direct Loans (continued)
                                                  (Dollars in Thousands)

                                                                 Loans                                            Value of Assets
                                                               Receivables         Interest      Allowance for   Related to Direct
                       Loan Programs                              Gross           Receivable      Loan Losses          Loans
  Direct Loans Obligated After FY 1991 as of September 30, 2005:
  Direct Loans                                                     $ 1,043,132    $    9,145      $ 716,853         $ 335,424
  MSED                                                                     150            24             27               147
  Total                                                            $ 1,043,282    $    9,169      $ 716,880         $ 335,572

  Direct Loans Obligated After FY 1991 as of September 30, 2004:
  Direct Loans                                                     $ 259,542      $    9,774      $ 237,215         $   32,101
  MSED                                                                   150              24             27                147
  Total                                                            $ 259,692      $    9,798      $ 237,242         $   32,248




                                       Total Amount of Direct Loans Disbursed
                                               (Dollars in Thousands)

Direct Loan Programs                                                                               FY 2005           FY 2004
   Direct Loans                                                                                   $ 6,910,911       $ 8,008,339
   MSED                                                                                                   793               827
  Total                                                                                           $ 6,911,704       $ 8,009,166




                         Subsidy Expense for Direct Loans by Program and Component
                                            (Dollars in Thousands)

                                                                 Total           Interest Rate    Technical           Total
Direct Loan Programs                                          Modifications       Reestimates    Reestimates       Reestimates
   Modifications and Reestimates (FY 2005)
   N/A                                                             $        –     $       –       $        –        $        –
  Total                                                            $        –     $       –       $        –        $        –

  Modifications and Reestimates (FY 2004)
  MSED                                                             $        –     $       –       $      (29)       $      (29)
  Total                                                            $        –     $       –       $      (29)       $      (29)




                                          Total Direct Loans Subsidy Expense
                                                     (in thousands)

Direct Loan Programs                                                                               FY 2005           FY 2004
   MSED                                                                                           $       –         $     (29)
   Direct Loans                                                                                           –                 –
  Total                                                                                           $        –        $      (29)




                                                                                                      Page 16 of 45

                                                                                                                                                 Appendix V




                                   Schedule for Reconciling Subsidy Cost Allowance Balances
                                                   (Post-1991 Direct Loans)
                                                    (Dollars in Thousandss)

                                                                                   FY 2005                                      FY 2004
                                                                     Direct Loan       MSED           Total       Direct Loan          MSED           Total
Beginning Balance, Changes, and Ending Balance
Beginning balance of the subsidy cost allowance                      $ 237,215     $       27   $ 237,242         $ 213,993        $     879      $ 214,872
Add: subsidy expense for direct loans disbursed during the report­
ing years by component:
           (a) Interest rate differential costs                             –               –                 –           –                –                  –
           (b) Default costs (net of recoveries)                            –               –                 –           –                –                  –
           (c) Fees and other collections                                   –               –                 –           –                –                  –
           (d) Other subsidy costs                                          –               –                 –           –                –                  –
Total of the above subsidy expense components                               –               –                 –           –                –                  –
Adjustments:
           (a) Loan modifications                                    $ 480,625     $        –       $ 480,625     $       –        $       –      $           –
           (b) Fees received                                                –               –                 –           –                –
           (c) Foreclosed property acquired                                 –               –                 –           –                –
           (d) Loans written off                                            –               –                 –           –                –                  –
           (e) Subsidy allowance amortization                           (2,874)             –          (2,874)        10,585            (716)          9,869
           (f) Other                                                     1,887              –           1,887         12,637            (107)         12,530
Ending balance of the subsidy cost allowance before reestimates      $ 716,853     $       27       $ 716,880     $ 237,215        $     56       $ 237,271
Add or subtract subsidy reestimates by component:
           (a) Interest rate reestimate                                     –               –                 –           –                –                  –
           (b) Technical/default reestimate                                 –               –                 –           –              (29)            (29)
Total of the above reestimate components                                    –               –                 –           –             ( 29)           ( 29)
Ending balance of the subsidy cost allowance                         $ 716,853     $       27       $ 716,880     $ 237,215        $     27       $ 237,242




                                                       Defaulted Guaranteed Loans
                                                          (Dollars in Thousands)

                                                                                                                                             Value of
                                                                           Defaulted                                                      Assets Related
                                                                          Guaranteed                                   Allowance           to Defaulted
                                                                       Loans Receivable,         Interest              For Loan          Guaranteed Loans
                    Loan Guarantee Programs                                  Gross              Receivable               Losses           Receivable, Net
  Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2005
  UE                                                                       $ 382,264            $     46,915           $ 159,477                $ 269,702
  Total                                                                    $ 382,264            $     46,915           $ 159,477                $ 269,702

  Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2004
  UE                                                                       $ 452,432            $     22,517           $ 179,312                $ 295,637
  Total                                                                    $ 452,432            $     22,517           $ 179,312                $ 295,637




                                                                                                                                           Page 17 of 45

                                                                                                        Appendix V



DEFAULTED GUARANTEED LOANS FROM POST-1991 GUARANTEES

In FY 2005, the UE Program experienced $4.2 million in defaults on payments.

In FY 2004, the UE Program experienced $4.4 million in defaults on payments.



GUARANTEED LOANS OUTSTANDING:

                                            Guaranteed Loans Outstanding
                                               (Dollars in Thousands)

                                                                               Outstanding Principal,         Amount of
                                                                                Guaranteed Loans,        Outstanding Principal
Loan Guarantee Programs                                                              Face Value               Guaranteed
  Guaranteed Loans Outstanding (FY 2005):
  UE                                                                              $    1,652,480           $    1,652,480
  MSED                                                                                    47,427                   23,714
  Israel                                                                              12,987,372               12,987,372
  DCA                                                                                    911,071                  405,810
  Egypt                                                                                1,250,000                1,250,000
  Total                                                                           $   16,848,350           $   16,319,376

  Guaranteed Loans Outstanding (FY 2004):
  UE                                                                              $    1,832,755           $    1,832,755
  MSED                                                                                    76,400                   38,200
  Israel                                                                              12,322,417               12,322,417
  DCA                                                                                    789,799                  341,500
  Total                                                                           $   15,021,371           $   14,534,872

  New Guaranteed Loans Disbursed (FY 2005):
  UE                                                                              $            –           $            –
  MSED                                                                                         –                        –
  DCA                                                                                   177,254                    88,627
  Israel                                                                                750,000                   750,000
  Egypt                                                                                 1,250,00                1,250,000
  Total                                                                           $    2,177,254           $    2,088,627

  New Guaranteed Loans Disbursed (FY 2004):
  UE                                                                              $            –           $            –
  MSED                                                                                     5,000                    2,500
  DCA                                                                                    250,233                  109,417
  Israel                                                                               3,350,000                3,350,000
  Total                                                                           $    3,605,233           $    3,461,917




                                                                                                    Page 18 of 45

                                                                                                                          Appendix V




                                            Liability for Loan Guarantees
                                               (Dollars in Thousands)

                                                                Liabilities for Losses   Liabilities for
                                                                    on Pre-1992        Loan Guarantees            Total
                                                                     Guarantees,         for Post-1991         Liabilities
                                                                  Estimated Future        Guarantees,          for Loan
                   Loan Guarantee Programs                         Default Claims        Present Value        Guarantees
 Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2005:
 UE                                                                 $ 195,344              $ 149,557          $ 344,901
 MSED                                                                           –                (1,811)             (1,811)

 Israel                                                                         –             1,066,734           1,066,734

 DCA                                                                          ––                  4,610               4,610

 Egypt                                                                          –               148,051             148,051

 Total                                                               $   195,344            $ 1,367,141               $ 1,562,485

 Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2004:
 UE                                                                 $ 242,171             $ 103,788           $ 345,959
 MSED                                                                        –                  (3,902)             (3,902)
 Israel                                                                      –                 700,855             700,855
 DCA                                                                         –                  (2,975)             (2,975)
 Total                                                               $   242,171            $   797,766               $ 1,039,937



SUBSIDY EXPENSE FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT:

                    Subsidy Expense for Loan Guarantees by Program and Component
                                         (Dollars in Thousands)

                                                                                            Fees and
                                                                 Interest                    Other
                Loan Guarantee Programs                        Supplements     Defaults    Collections        Other            Total
 Subsidy Expense for New Loan Guarantees (FY 2005):
 DCA                                                             $       –    $    4,297    $      –      $       –        $    4,297
 MSED                                                                    –         1,110           –              –             1,110
 Total                                                           $       –    $ 5,407       $      –      $       –        $ 5,407

 Subsidy Expense for New Loan Guarantees (FY 2004):
 DCA                                                             $       –    $     993     $      –      $       –        $      993
 MSED                                                                    –         1,466           –              –             1,466
 Total                                                           $       –    $ 2,459       $      –      $       –        $ 2,459




                                                                                                                      Page 19 of 45

                                                                                                   Appendix V


             Subsidy Expense for Loan Guarantees by Program and Component (continued)
                                       (Dollars in Thousands)


                                                                            Total     Interest Rate Technical     Total
Loan Guarantee Programs                                                  Modifications Reestimates Reestimates Reestimates
  Modifications and Reestimates (FY 2005):
  UE                                                                       $     –     $     –      $      532        $      532
  MSED                                                                           –           –               –                    –
  DCA                                                                            –           –             211               211
  Israel                                                                         –           –          187,892           187,892
  Egypt                                                                          –           –            7,335             7,335
  Total                                                                    $     –     $     –      $195,970          $195,970

  Modifications and Reestimates (FY 2004):
  UE                                                                       $     –     $     –      $     2,194       $     2,194
  MSED                                                                           –           –             610               610
  DCA                                                                            –           –              64                64
  Total                                                                    $     –     $     –      $ 2,868           $ 2,868



                                      Total Loan Guarantee Subsidy Expense
                                              (Dollars in Thousands)

Loan Guarantee Programs                                                                      FY 2005               FY 2004
  DCA                                                                                       $    4,508            $    1,057
  UE                                                                                               532                 2,194
  MSED                                                                                           1,110                 2,076
  Israel                                                                                       187,892                     –
  Egypt                                                                                          7,335                     –
  Total                                                                                     $ 201,377             $       5,327




SUBSIDY RATES FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT:

                Budget Subsidy Rates for Loan Guarantees for the Current Year’s Cohorts
                                               (Percent)

                                            Interest                     Fees and Other
Loan Guarantee Programs                 Supplements (%)   Defaults (%)   Collections (%)     Other (%)            Total (%)
  DCA                                          –             5,14%              –                  –                5.14%




                                                                                                 Page 20 of 45

                                                                                                                                                     Appendix V


                                           Schedule for Reconciling Loan Guarantee Liability Balances
                                                            (Dollars in Thousands)

(Post-1991 Loan Guarantees)                                                               DCA            MSED           UE                Israel          Egypt             Total
                                                                                    FY 2005
Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability                                     $ ( 2,975)     $ (3,902)     $ 103,787      $ 700,856           $        –    $ 797,766
Add: subsidy expense for guaranteed loans disbursed during the reporting years by
  component:
   (a) Interest supplement costs                                                                –            –               –                  –              –                    –
   (b) Default costs (net of recoveries)                                                        –            –               –                  –              –                    –
   (c) Fees and other collections                                                               –            –               –                  –              –                    –
   (d) Other subsidy costs                                                                 4,298          1,110              –                  –              –              5,408
Total of the above subsidy expense components                                         $    4,298     $    1,110    $         –    $             –     $        –    $         5,408
Adjustments:
   (a) Loan guarantee modifications                                                             –            –               –                  –              –                    –
   (b) Fees received                                                                       1,443           209           2,591             29,250         137,250           170,743
   (c) Interest supplements paid                                                                –            –               –                  –              –                    –
   (d) Foreclosed property and loans acquired                                                   –            –               –                  –              –                    –
   (e) Claim payments to lenders                                                            (310)         (586)         (4,167)                 –              –             (5,063)
   (f) Interest accumulation on the liability balance                                           –            –           8,279             47,110           3,109            58,498
   (g) Other                                                                               3,736          4,784        48,555             (14,153)             –             42,922
Ending balance of the loan guarantee liability before reestimates                     $    6,192     $    1,615    $ 159,045      $ 763,063           $ 140,359     $ 1,070,274
Add or subtract subsidy reestimates by component:
   (a) Interest rate reestimate                                                                 –            –               –                  –              –                    –
   (b) Technical/default reestimate                                                       ( 1,582)       (3,426)        (9,488)           303,671           7,692           296,867
Total of the above reestimate components                                              $ (1,582)      $ (3,426)     $ (9,488)      $ 303,671           $     7,692   $ 296,867
Ending balance of the loan guarantee liability                                        $    4,610     $ (1,811)     $ 149,557      $ 1,066,734         $ 148,051     $ 1,367,141

                                                                                    FY 2004
Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability                                     $ ( 1,014)     $     264     $ 175,521          $ 673,262       $        –        $ 848,032
Add: subsidy expense for guaranteed loans disbursed during the reporting years by
  component:
   (a) Interest supplement costs                                                                –            –               –                  –              –                    –
   (b) Default costs (net of recoveries)                                                        –            –               –                  –              –                    –
   (c) Fees and other collections                                                               –            –               –                  –              –                    –
   (d) Other subsidy costs                                                                    993         1,466              –                  –              –              2,459
Total of the above subsidy expense components                                         $       993    $    1,466    $         –        $         –     $        –        $     2,459
Adjustments:
   (a) Loan guarantee modifications                                                             –            –               –                  –              –                    –
   (b) Fees received                                                                            –            –          2,468              88,200              –             90,668
   (c) Interest supplements paid                                                                –            –               –                  –              –                    –
   (d) Foreclosed property and loans acquired                                                   –            –               –                  –              –                    –
   (e) Claim payments to lenders                                                                –            –          (4,380)                 –              –             (4,380)
   (f) Interest accumulation on the liability balance                                           –            –           3,528             55,987              –             59,515
   (g) Other                                                                                (765)        (3,522)       (71,514)            19,512              –            (56,289)
Ending balance of the loan guarantee liability before reestimates                     $     (787)    $ (1,792)     $ 105,621          $ 836,960       $        –        $ 940,005
Add or subtract subsidy reestimates by component:
   (a) Interest rate reestimate                                                                 –            –               –                  –              –                    –
   (b) Technical/default reestimate                                                       ( 2,188)       (2,111)        (1,834)        (136,105)               –         (142,237)
Total of the above reestimate components                                              $ (2,188)      $ (2,111)     $ (1,834)          $(136,105)      $        –        $(142,237)

Ending balance of the loan guarantee liability                                        $ (2,975)      $ (3,902)     $ 103,787          $ 700,855       $        –        $ 797,766 




                                                                                                                                                   Page 21 of 45

                                                                                                                   Appendix V




                                                    Administrative Expense
                                                    (Dollars in Thousands)

Loan Programs                                                                                                FY 2005              FY 2004
  DCA                                                                                                       $    9,615           $    8,862
  UE                                                                                                               217                  594
  MSED                                                                                                               2                  161
   Total                                                                                                    $    9,834           $    9,617


OTHER INFORMATION

1. Allowance for Loss for Liquidating account (pre-Credit           2. The MSED Liquidating Account general ledger has a loan
   Reform Act) receivables have been calculated in accordance          receivable balance of $643 thousand.This includes two loans
   with OMB guidance using a present value method which                pending closure.These loans are being carried at 100% bad
   assigns risk ratings to receivables based upon the country of       debt allowance.
   debtor. Fourteen countries are in violation of Section 620q
   of the Foreign Assistance Act (FAA), owing $43.6 million that
   is more than six months delinquent. Eleven countries are in
   violation of the Brooke-Alexander Amendment to the
   Foreign Operations Export Financing and Related Programs
   Appropriations Act, owing $439.9 million that is more than
   one year delinquent. Outstanding direct loans receivable for
   countries in violation of Section 620q totaled $37.2 million.
   Outstanding direct loans receivable for countries in violation
   of the Brooke Amendment totaled $421 million.




NOTE 7. INVENTORY AND RELATED PROPERTY (Dollars in Thousands)

USAID's Inventory and Related Property is comprised of Operating Materials and Supplies. Operating Materials and Supplies as of
September 30, 2005 and 2004 are as follows:
                                                                                             FY 2005                     FY 2004

  Items Held for Use
     Office Supplies                                                                         $ 13,319                    $    7,212

  Items Held in Reserve for Future Use
     Disaster assistance materials and supplies                                                     9,097                     7,986
     Birth control supplies                                                                     21,707                       20,566
  Total                                                                                      $ 44,122                    $ 35,764

Operating Materials and Supplies are valued at historical cost and considered not held for sale.





                                                                                                                Page 22 of 45

                                                                                                                          Appendix V




NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET


                                    General Property, Plant and Equipment, Net
                                              (Dollars in Thousands)

                                                                                                         Accumulated Net Book
                                                                              Useful Life      Cost      Depreciation  Value
   The components of PP&E as of September 30, 2005 are as follows:
   Classes of Fixed Assets
     Equipment                                                                 3 to 5 years   $ 76,099     $ (38,729)      $ 37,370
     Buildings, Improvements, & Renovations                                      20 years       59,221       (26,789)        32,432
     Land and Land Rights                                                          N/A           4,181             –          4,181
     Assets Under Capital Lease                                                                  6,365        (1,864)         4,501
     Construction in Progress                                                      N/A             570             –            570
     Internal Use Software                                                     3 to 5 years     29,961       (12,843)        17,119
   Total                                                                                      $176,396     $ (80,225)      $ 96,172


   The components of PP&E as of September 30, 2004 are as follows:
   Classes of Fixed Assets
     Equipment                                                                 3 to 5 years   $ 56,471     $ (25,732)      $ 30,740
     Buildings, Improvements, & Renovations                                      20 years       53,851       (24,263)        29,588
     Land and Land Rights                                                          N/A           4,181             –          4,181
     Assets Under Capital Lease                                                                  6,872        (1,423)         5,449
     Construction in Progress                                                      N/A             570             –            570
     Internal Use Software                                                     3 to 5 years     20,328        (8,901)        11,427
   Total                                                                                      $142,272     $ (60,317)      $ 81,954


The threshold for capitalizing or amortizing assets is $25,000.   Structures and Facilities include USAID owned office buildings
Assets purchased prior to FY 2003 are depreciated using the       and residences at foreign missions, including the land on which
straight line depreciation method. Assets purchased during FY     these structures reside. These structures are used and
2003 and beyond are depreciated using the mid-quarter             maintained by the field missions. USAID does not separately
convention depreciation method. Depreciable assets are            report the cost of the building and the land on which the building
assumed to have no remaining salvage value. There are currently   resides.
no restrictions on PPE assets.
                                                                  Land consists of property owned by USAID in foreign countries.
USAID PP&E includes assets located in Washington, D.C. offices    Usually the land is purchased with the intention of constructing
and overseas field Missions.                                      an office building at the site.

Equipment consists primarily of electric generators, ADP
hardware, vehicles and copiers located at the overseas field
missions.




                                                                                                                        Page 23 of 45

                                                                                                               Appendix V



NOTE 9. LEASES
                                               Leases as of September 30, 2005 and 2004
                                                         (Dollars in Thousands)

Entity as Lessee
  Capital Leases:                                                                                 FY 2005              FY 2004
  Summary of Assets Under Capital Lease:
     Buildings                                                                                $      6,365         $      6,872

     Accumulated Depreciation                                                                 $      1,864         $      1,423

  Future Payments Due:
  Fiscal Year                                                                                 Future Costs         Future Costs
     2005                                                                                     $        –           $       785
     2006                                                                                            195                   471
     2007                                                                                            165                   431
     2008                                                                                             45                   192
     2009                                                                                             45                   164
     2010                                                                                             45                     –
     After 5 Years                                                                                   158                     –
  Net Capital Lease Liability                                                                        653                 2,043
  Lease Liabilities Covered by Budgetary Resources                                                   653                 2,043
  Lease Liabilities Not Covered by Budgetary Resources                                                 –                     –
  The capital lease liability is reported on USAID's Balance Sheet under Other Liabilities.
  Operating Leases:                                                                               FY 2005         FY 2004 Recast
  Future Payments Due:
  Fiscal Year                                                                                 Future Costs         Future Costs
     2005                                                                                     $         –          $    76,968
     2006                                                                                          77,861               75,258
     2007                                                                                          76,467               73,798
     2008                                                                                          75,332               73,207
     2009                                                                                          74,094               70,020
     2010                                                                                          72,219               75,773
     After 5 Years                                                                                 19,515                    –
   Total Future Lease Payments                                                                $    395,489         $    445,024



Of the $395.5 million in future lease payment, $153.5 is attributable to the Ronald Regan Building. The stepped rent schedule on the
Ronald Reagan Building in Washington D.C., USAID’s headquarters expired September 30, 2005. The occupancy agreement for the
Ronald Reagan Building in Washington D.C will expire September 30, 2010. This building is leased by the General Services
Administration (GSA). USAID is charged rent intended to approximate commercial rental rates. Lease payments for FY 2005 and
2004 amounted to $40.5 million and $39 million respectively.

In FY 2004,Total Future Lease Payments were presented in Note 9 as $203 million. Future operating lease costs for the RRB for years
2006 and beyond were not available as of year-end reporting last year and thus not included in that amount. Total Future Lease
Payments for FY 2004 should have been reflected as $445 million. The amounts presented in the FY 2004 Future Costs column have
been recast to reflect the $445 million.




                                                                                                             Page 24 of 45

                                                                                                                                   Appendix V




NOTE 10. ACCOUNTS PAYABLE
The Accounts Payable covered by budgetary resources as of September 30, 2005 and 2004 consisted of the following:

                                    Accounts Payable Covered by Budgetary Resources
                                                 (Dollars in Thousands)

                                                                                               FY 2005          FY 2004 RESTATED

  Intragovernmental
     Accounts Payable                                                                      $     24,226            $     29,523
     Disbursements in Transit                                                                         6                       –
  Total Intragovernmental                                                                        24,232                  29,523
     Accounts Payable                                                                          3,164,071               2,334,613
     Disbursements in Transit                                                                    16,522                   9,010
                                                                                               3,180,592               2,343,623
  Total Accounts Payable                                                                   $ 3,204,824             $ 2,373,146
Intragovernmental Accounts Payable are those payable to other federal agencies and consist mainly of unliquidated obligation balances
related to interagency agreements between USAID and other federal agencies.

Year end accounts payable accruals were underestimated at the end of FY 2004 by about $383.1 million. Fiscal Year 2004 data has
been restated to show the increase in account payables.

All other Accounts Payable represent liabilities to other non-federal entities.


NOTE 11. DEBT
USAID Intragovernmental debt as of September 30, 2005 and 2004 consisted of the following borrowings from Treasury for post­
1991 loan programs, which is classified as other debt:

                                Intragovernmental Debt as of September 30, 2005 and 2004
                                                 (Dollars in Thousands)

                                                 FY 2004                             FY 2004                                   FY 2005
                                                Beginning             Net             Ending                  Net               Ending
                                                  Balance          Borrowing          Balance              Borrowing            Balance
   Urban & Environmental                        $         –        $        –       $        –             $       –          $        –
   Direct Loan                                      77,981             33,100          111,081               311,521             422,602
   MSED                                              1,184             (1,184)               –                     –                   –
   Total Debt                                   $   79,165         $   31,916       $ 111,081              $ 311,521          $ 422,602



Pursuant to the Credit Reform Act of 1990, agencies with credit programs have permanent indefinite authority to borrow funds from
the Treasury.These funds are used to disburse new direct loans to the public and, in certain situations, to cover credit reform program
costs. Liquidating (pre-1992) accounts have permanent indefinite borrowing authority to be used to cover program costs when they
exceed account resources. UE Program debt includes amounts borrowed before the effective date of the Credit Reform Act of 1990.

The above disclosed debt is principal payable to Treasury, which represents financing account borrowings from the Treasury under the
Credit Reform Act. In addition, there is net liquidating account equity in the amount of $5.3 billion, which under the Credit Reform
Act is required to be recorded as Due to Treasury. Both of these accounts are used exclusively for credit reform activity. All debt
shown is intragovernmental debt.




                                                                                                                            Page 25 of 45

                                                                                                                  Appendix V




NOTE 12. OTHER LIABILITIES
As of September 30, 2005 and 2004 Other Liabilities consisted of the following:

                                       Other Liabilities as of September 30, 2005 and 2004
                                                      (Dollars in Thousands)

                                                                                                       FY 2005           FY 2004

  Intragovernmental
     OPAC Suspense                                                                                 $          -        $           -
     Unfunded FECA Liability                                                                              7,429              9,529
     Deposit and Clearing Accounts                                                                            -                    -
     Credit Program Undisbursed Loans                                                                         -            207,095
     Other                                                                                               23,081            203,950
  Total Intragovernmental                                                                                30,510            420,574
     Accrued Funded Payroll/Benefits                                                                     13,964             11,357
     Unfunded Leave                                                                                      33,324             29,891
     Advances From Others                                                                                     7                    -
     Deferred Credit                                                                                     11,557              7,405
     Liability for Deposit Funds and Suspense Accounts – Non-Entity                                      18,072             19,148
     Foreign Currency Trust Fund                                                                        282,545            256,871
     Custodial Liability                                                                                    50                     6
     Capital Lease Liability                                                                               781               2,589
     Trust Fund Balances                                                                                 30,035             26,459
     Other                                                                                                    -                 24
  Total                                                                                            $    390,335        $   353,750

  Total Other Liabilities                                                                          $ 420,845           $ 774,324


All liabilities are current. Intragovernmental Liabilities represent amounts due to other federal agencies. All remaining Other Liabilities
are liabilities to non-federal entities.


NOTE 13. ACCRUED UNFUNDED ANNUAL LEAVE AND SEPARATION PAY
Accrued unfunded benefits for annual leave and separation pay as of September 30, 2005 and 2004 are as indicated below.


resources.                                              Accrued Unfunded Benefits
                                                          (Dollars in Thousands)

                                                                                                    FY 2005              FY 2004

  Liabilities Not Covered by Budgetary Resources
     Accrued Annual Leave                                                                          $     32,076        $    29,882
     FSN Separation Pay Liability                                                                         1,248                  9
  Total Accrued Unfunded Annual Leave and Separation Pay                                           $     33,324        $    29,891




                                                                                                              Page 26 of 45

                                                                                                                          Appendix V




NOTE 14. FEDERAL EMPLOYEES AND VETERAN'S BENEFITS
The provision for workers’ compensation benefits payable, as of September 30, 2005 and 2004 are as indicated below.

                                   Accrued Unfunded Workers’ Compensation Benefits
                                                (Dollars in Thousands)

                                                                                                 FY 2005             FY 2004

  Liabilities Not Covered by Budgetary Resources
     Future Workers' Compensation Benefits                                                      $    23,726         $    24,523
     Accrued Funded Payroll and Leave                                                                13,964               6,985
     Total Accrued Unfunded Workers’ Compensation Benefits                                      $    37,690         $    31,508


The Federal Employees Compensation Act (FECA) program is administered by the U.S. Department of Labor (DOL) and provides
income and medical cost protection to covered Federal civilian employees who have been injured on the job or have incurred a
work-related occupational disease. Compensation is given to beneficiaries of employees whose death is attributable to a job-related
injury or occupational disease. DOL initially pays valid FECA claims for all Federal government agencies and seeks reimbursement
two fiscal years later from the Federal agencies employing the claimants.

Estimated future FECA costs are determined by the Department of Labor. This liability is determined using a paid losses extrapolation
method calculated over a 37 year period. This method utilizes historical benefit payment patterns related to a specific incurred period
to predict the ultimate payments related to that period. These annual benefit payments have been discounted to present value. The
interest rate assumptions used for discounting were 4.883% in year 1 and 5.235% in Year 2 and thereafter.


NOTE 15. COMMITMENTS AND CONTINGENCIES
USAID is involved in certain claims and suits, and complaints that have been filed or are pending.These matters are in the ordinary
course of the Agency’s operations and are not expected to have a material adverse effect on the Agency’s financial operations.

As of September 30, 2005 a total of nine cases were pending. One case has been designated as reasonably possible. This case is a
contract claim over the payment of Peruvian taxes on a building leased by USAID/Peru as mission offices.The estimated loss is over
$1million.The status of the remaining litigation cases are at a remote designation.

The group of cases disclosed at the end of FY 2004, involving Negotiated Indirect Cost Rate Agreement (NICRA) rates have been
dismissed in USAID’s favor.




                                                                                                                        Page 27 of 45

                                                                                                                               Appendix V



NOTE 16. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
Liabilities not covered by budgetary resources as of September 30, 2005 and 2004 are as follows:

                                            Liabilities Not Covered by Budgetary Resources
                                                          (Dollars in Thousands)

                                                                                                                 FY 2005                FY 2004

   Intragovernmental
      Accounts Payable                                                                                         $   351,663             $    103,202
      Debt                                                                                                         422,602                  111,081
      Other                                                                                                          30,510                 420,574
   Total Intragovernmental                                                                                         804,775                  634,857
   With The Public
      Accrued unfunded annual leave and separation pay                                                               33,324                  29,891
      Accrued unfunded Workers Compensation Benefits                                                                 37,690                  31,508
      Debt - Contingent Liabilities for Loan Guarantees                                                             195,344                 242,171
   Total Liabilities not covered by Budgetary Resources                                                             266,359                 303,571
   Total Liabilities covered by Budgetary Resources                                                              10,202,446                9,492,187
      Less Intra-Agency Liabilities                                                                                (327,437)                (73,679)
   Total Liabilities                                                                                           $10,946,143             $10,356,936


Fiscal Year 2005 Total Liabilities covered Budgetary Resources are $10.7 billion.

Fiscal Year 2004 data presentation has been changed to comply with OMB’s Circular A-136 format. For FY 2004, Total Liabilities covered by Budgetary Resources
were $10.1 billion.




NOTE 17. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE
The Consolidated Statement of Net Cost reports the Agency's gross costs less earned revenues to arrive at net cost of operations by
strategic goals, as of September 30, 2005. These goals are consistent with USAID's Strategic Planning Framework. These goals are
consistent with USAID’s Strategic Planning Framework. In FY 2005, as part of the annual certification process for mapping strategic
objectives to performance goals, strategic objectives assigned to performance goals under the Public Diplomacy and Public Affairs
strategic goal were reassigned to performance goals under the Regional Stability strategic goal. Thus, the Public Diplomacy goal is not
effective for FY 2005 cost reporting.

Also, the format of the Consolidated Statement of Net Cost is new for FY 2005 and is consistent with OMB Circular A-136 guidance.
To the extent possible, FY 2004 comparative data has been recast consistent with this format. Comparative FY 2004 data has also
been restated to include the $383.1 million in expenses that were not reported in last year’s financial statements. The restatement is
discussed in Note 22.

Note 17 shows the value of exchange transactions between USAID and other Federal entities as well as non-Federal entities. These
are also categorized by strategic goals and responsibility segments. Responsibility Segments are defined in Note 18.

Intragovernmental costs and exchange revenue sources relate to transactions between USAID and other Federal entities. Public costs
and exchange revenues on the other hand relate to transactions between USAID and non-Federal entities. The FY 2004 data reflects
the $383.1 million restatement and the format is consistent with last year's Note 17. Earned revenue could not be recast by
intragovernmental and with the public.




                                                                                                                           Page 28 of 45

                                                                                                                                                         Appendix V




                            U.S. Agency for International Development

         INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE BY RESPONSIBILITY SEGMENT

                         For the Years Ended September 30, 2005 and 2004

                                       (Dollars in Thousands)

                                                                                                                                Latin
                                                       Asia & Near                               Europe &        Global       America & Intra-Agency          2005                 2004
Goal                                      Africa           East            DCHA       EGAT        Eurasia        Health       Caribbean Eliminations          Total              Restated

Regional Stability
       Intragovernmental Costs     $        1,009      $      3,790    $     8,805 $ 2,858       $     1,020 $            -   $    11720     $   (107)    $     29,095       $      13,632
       Public Costs                        28,493           394,022        289,166      2,064         21,604              -        20,147           -          755,496             664,051
           Total Program Costs             29,501           397,812        297,971      4,922         22,624              -        31,868        (107)         784,590             677,683
       Intragovernmental Earned Revenue       (30)             (158)         (241)           -           (39)             -           (45)          7             (507)                     -
       Public Earned Revenue                   (7)              (36)           (54)          -            (9)             -           (10)          -             (115)                     -
          Total Earned Revenue                (36)             (194)         (295)           -           (48)             -           (56)          7             (622)             (1,271)

Counterterrorism
  Intragovernmental Costs                      (2)            8,665               -          -             -              -             -         (32)           8,631              17,198
  Public Costs                                (61)          879,295               -          -             -              -             -           -          879,234             116,956
       Total Program Costs                    (63)          887,960               -          -             -              -             -         (32)         887,866             134,154
  Intragovernmental Earned Revenue                 -           (341)              -          -             -              -             -           5             (336)                     ­

  Public Earned Revenue                            -            (76)              -          -             -              -             -           -                 (76)                  ­

       Total Earned Revenue                        -           (417)              -          -             -              -             -           5             (412)                (54)

International Crime and Drugs
       Intragovernmental Costs                     -               -         1,591           -          497               -        37,336        (144)          39,280               4,540
       Public Costs                                -               -        12,521           -         6,159              -       159,738           -          178,417              75,302
          Total Program Costs                      -               -        14,112           -         6,655              -       197,074        (144)         217,697              79,842
       Intragovernmental Earned Revenue            -               -           (11)          -           (21)             -         (285)           4             (313)                     ­

       Public Earned Revenue                       -               -            (3)          -            (5)             -           (64)          -                 (71)                  ­

          Total Earned Revenue                     -               -           (14)          -           (25)             -         (350)           4             (384)               (295)

Democracy and Human Rights
       Intragovernmental Costs              3,423             3,601          2,720           -        39,095              -         9,801        (215)          58,426              20,932
       Public Costs                    105,062              337,316         25,862           -       486,109              -       184,197           -         1,138,546          1,305,750
          Total Program Costs          108,485              340,918         28,582           -       525,204              -       193,998        (215)        1,196,972          1,326,682
       Intragovernmental Earned Revenue (2,509)                (131)           (23)          -        (1,633)             -         (284)         64             (4,516)                    -
       Public Earned Revenue                  (27)              (29)            (5)          -         (366)              -           (64)          -             (491)                     -
          Total Earned Revenue             (2,535)             (160)           (28)          -        (1,999)             -         (348)         64             (5,007)            (3,789)

Economic Prosperity and Security
       Intragovernmental Costs             14,081            20,146           331      28,537         48,836              -        14,798        (524)         126,206             122,736
       Public Costs                    319,885             1,538,419   1,098,034      146,805        482,126              -       230,851           -         3,816,120          3,387,395
          Total Program Costs          333,966             1,558,566   1,098,365      175,342        530,962              -       245,648        (524)        3,942,326          3,510,131
       Intragovernmental Earned Revenue (1,680)                (590)            (3)     (308)         (1,630)             -         (353)         64             (4,500)                    -
       Public Earned Revenue                  (85)             (135)            (1)    (2,351)         (371)              -           (81)          -            (3,023)                    -
          Total Earned Revenue             (1,764)             (725)            (4)    (2,659)        (2,001)             -         (434)         64             (7,523)           (14,339)

                                                                                                                                                               (continued on next page)




                                                                                                                                                  Page 29 of 45
                                                                                                                                                                         Appendix V




                         U.S. Agency for International Development

  INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE BY RESPONSIBILITY SEGMENT (continued)

                      For the Years Ended September 30, 2005 and 2004

                                    (Dollars in Thousands)


                                                                                                                                           Latin
                                                              Asia & Near                                  Europe &         Global       America & Intra-Agency              2005              2004
   Goal                                          Africa           East           DCHA          EGAT         Eurasia         Health       Caribbean Eliminations              Total           Restated

   Social and Environmental Issues
          Intragovernmental Costs                 51,480           19,111                -      43,230          23,521         32,111         20,262           (609)          189,105           369,840
          Public Costs                           886,707       1,166,285              285     129,625         229,869      1,338,976         356,512                -       4,108,261          4165,481
             Total Program Costs                 938,187       1,185,396              285     172,855         253,390      1,371,087         376,774           (609)        4,297,366         4,535,321
          Intragovernmental Earned Revenue (1,049)                   (435)               -     (11,834)           (781)       (43,225)           (552)          811            (57,065)                 -
          Public Earned Revenue                     (239)             (99)               -      (8,726)           (178)           (93)           (126)              -           (9,461)                 -
             Total Earned Revenue                 (1,288)            (534)               -     (20,560)           (959)       (43,319)           (678)          811            (66,526)         (66,842)

   Humanitarian Response
          Intragovernmental Costs                  2,722            1,516         46,390               -         4,013               -          5,250          (219)            59,672          180,203
          Public Costs                            63,964           64,311        369,250      461,354           49,769               -       120,135                -       1,128,782           562,240
             Total Program Costs                  66,686           65,827        415,640      461,354           53,783               -       125,384           (219)        1,188,454           742,443
          Intragovernmental Earned Revenue            (61)              (9)          (334)     (64,489)           (167)              -           (184)          914            (64,329)                 -
          Public Earned Revenue                       (14)              (2)           (76) (129,319)               (38)              -            (42)              -        (129,491)                  -
             Total Earned Revenue                     (75)            (11)           (410) (193,807)              (205)              -           (226)          914          (193,820)          (66,133)

   Management and Organizational Excellence
          Intragovernmental Costs                    637                 -               -       5,092                -              -               -           (21)            5,709             5,581
          Public Costs                               646                 -               -       8,332                -              -               -              -            8,978           42,490
             Total Program Costs                   1,283                 -               -      13,424                -              -               -           (21)           14,686           48,071
          Intragovernmental Earned Revenue             (1)               -               -          (29)              -              -               -              -                (30)               -
          Public Earned Revenue                           -              -               -           (7)              -              -               -              -                 (7)               -
             Total Earned Revenue                      (2)               -               -          (36)              -              -               -              -                (37)           (424)

   Public Diplomacy and Public Affairs
          Intragovernmental Costs                         -              -               -             -              -              -               -              -                  -             157
          Public Costs                                    -              -               -             -              -              -               -              -                  -         35,567
             Total Program Costs                          -              -               -             -              -              -               -              -                  -         35,724
          Intragovernmental Earned Revenue                -              -               -             -              -              -               -              -                  -                ­

          Public Earned Revenue                           -              -               -             -              -              -               -              -                  -                ­

             Total Earned Revenue                         -              -               -             -              -              -               -              -                  -            (177)
   Net Costs of Operations                   $1,472,345       $4,434,437      $1,854,204 $610,835 $1,387,382 $1,327,768 $1,168,655                        $         -    $12,255,626        $10,936,727


Note:The Total Earned Revenue by strategic goals on Notes 17 and 18 are slightly off from the Consolidated and Consolidating Statement of Net Cost. Some public earned revenue could not be mapped
to a specific goal. Since the amount was immaterial, it was allocated amongst the goals with the largest amounts of public earned revenue i.e., Economic Prosperity and Security, Social and Environmental
Issues and Humanitarian Response. Pre-allocatoin, these goals collectively made up approximately 99% of the Total Public Earned revenue.




                                                                                                                                                                   Page 30 of 45

                                                                                                                                                         Appendix V




NOTE 18. SCHEDULE OF COST BY RESPONSIBILITY SEGMENTS
The Schedule of Costs by Responsibility Segment categorizes costs and revenues by strategic and performance goals and responsibility segment.

A responsibility segment is the component that carries out a mission or major line of activity, and whose managers report directly to top
management. The geographic and technical bureaus of USAID (below) meet the criteria of a responsibility segment.These bureaus directly support
the Agency goals while the remaining bureaus and offices support the operations of these bureaus. To report the full cost of program outputs, the
cost of support bureaus and offices are allocated to the outputs of the geographic and technical bureaus. Intra-agency eliminations are allocated
to goals to reflect total goals costs.

                                     FY 2005 STATEMENT OF NET COST RESPONSIBILITY SEGMENTS
          Geographic Bureaus                                                                      Technical Bureaus

             Africa (AFR)                                                                           Democary, Conflict, and Humanitarian Assistance (DCHA)

             Asia and Near East (ANE)                                                               Economic Growth, Agriculture, and Trade (EGAT)

             Latin America and the Caribbean (LAC)                                                  Global Health (GH)

             Europe and Eurasia (E&E)


                                                  U.S. Agency for International Development

                                             SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENT

                                                   For the Year Ended September 30, 2005

                                                            (Dollars in Thousands)


                                                                                                                                  Latin
                                                          Asia & Near                              Europe &        Global       America &   Combined     Intra-Agency Consolidated
  Goal                                       Africa           East          DCHA       EGAT         Eurasia        Health       Caribbean     Total      Eliminations    Total

  Regional Stability
    Close, strong, and effective U.S. ties with allies
         Gross Costs                     $      4,402     $ 377,598        $ 52,070    $ 4,922     $ 14,071    $            -   $ 16,504    $ 469,568      $     (74)    $   469,494
         Less: Earned Revenues                      (6)          (185)          (51)          -         (15)                -        (28)        (286)             3            (283)
         Net Program Costs                      4,396        377,413         52,019      4,922       14,056                 -     16,476       469,281           (70)        469,211
    Existing and emergent regional conflicts are contained or resolved
         Gross Costs                           25,099         20,214        245,900           -       8,553                 -     15,364       315,130           (33)        315,056
         Less: Earned Revenues                    (30)             (9)         (244)          -         (32)                -        (28)        (343)             4            (339)
         Net Program Costs                     25,068         20,205        245,656           -       8,520                 -     15,336       314,787           (29)        314,757

  Counterterrorism
    Stable political and economic conditions
           Gross Costs                            (63)       887,960               -          -           -                 -          -      887,897            (32)        887,865
           Less: Earned Revenues                      -          (417)             -          -           -                 -          -         (417)             5            (412)
           Net Program Costs                      (63)       887,543               -          -           -                 -          -       887,480           (27)        887,453

  International Crime and Drugs
    International trafficking in drugs, persons, and other illicit goods
         Gross Costs                                  -              -             -          -       6,655                 -    197,074       203,729          (138)        203,591
         Less: Earned Revenues                        -              -             -          -         (25)                -       (350)        (375)             4            (371)
         Net Program Costs                            -              -             -          -       6,630                 -    196,724       203,354          (134)        203,220
                                                                                                                                                               (continued on next page)



                                                                                                                                                  Page 31 of 45
                                                                                                                                                    Appendix V


                                          U.S. Agency for International Development

                                 SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENT (continued)

                                           For the Year Ended September 30, 2005

                                                    (Dollars in Thousands)


                                                                                                                            Latin
                                                       Asia & Near                             Europe &      Global       America &   Combined      Intra-Agency Consolidated
Goal                                      Africa           East         DCHA        EGAT        Eurasia      Health       Caribbean     Total       Eliminations    Total

International Crime and Drugs (continued)
   States cooperate internationally to set and implement anti-drug and anti-crime standards, share financial and political burdens
       Gross Costs                                 -              -      14,112            -           -              -          -       14,112            (6)         14,106
       Less: Earned Revenues                       -              -         (14)           -           -              -          -          (14)             -             (14)
       Net Program Costs                           -              -      14,098            -           -              -          -       14,098            (6)         14,092

Democracy and Human Rights
   Develop transparent and accountable democratic institutions
       Gross Costs                         108,485         333,991       23,521            -    525,204               -    182,908     1,174,109         (211)       1,173,898
       Less: Earned Revenues                 (2,535)          (157)         (23)           -     (1,999)              -       (328)       (5,043)          64           (4,979)
       Net Program Costs                   105,950         333,833       23,498            -    523,205               -    182,580     1,169,066         (147)       1,168,919
   Universal standards protect human rights
       Gross Costs                                 -         6,927        5,061            -           -              -     11,090       23,078            (4)         23,074
       Less: Earned Revenues                       -             (3)          (5)          -           -              -        (20)         (28)             -             (28)
       Net Program Costs                           -         6,924        5,056            -           -              -     11,070       23,050            (4)         23,046

Economic Prosperity and Security
   Enhanced food security and agricultural development
       Gross Costs                         224,083          35,863     1,098,365    72,320             -              -     71,462     1,502,093          (76)       1,502,017
       Less: Earned Revenues                  (307)             (19)          (4)    (202)             -              -       (130)        (661)            7            (654)
       Net Program Costs                   223,777          35,844     1,098,361    72,117             -              -     71,332     1,501,432          (69)       1,501,363
   Increased trade and investment
       Gross Costs                          71,507         369,911             -    14,343             -              -     58,667      514,428           (49)        514,380
       Less: Earned Revenues                 (1,405)          (182)            -       (38)            -              -       (105)       (1,730)          23          ( 1,707)
       Net Program Costs                    70,102         369,729             -    14,306             -              -     58,561      512,698           (25)        512,673
   Institutions, laws, and policies foster private sector led growth
       Gross Costs                          38,375         975,242             -    77,455      457,304               -    114,675     1,663,051         (349)       1,662,702
       Less: Earned Revenues                    (52)          (460)            -    (2,419)      (1,722)              -       (198)       (4,850)          30           (4,820)
       Net Program Costs                    38,323         974,782             -    75,036      455,582               -    114,478     1,658,201         (319)       1,657,882
Secure and stable financial and energy markets
       Gross Costs                                 -       177,550             -    11,224       73,659               -       844       263,277           (50)        263,227
         Less: Earned Revenues                     -            (64)           -           -       (279)              -         (1)        (345)            4            ( 341)
         Net Program Costs                         -       177,486             -    11,224       73,379               -       843       262,932           (46)        262,887

Social and Environmental Issues
   Broader access to quality education with an emphasis on primary school completion
       Gross Costs                         145,331         320,081             -    13,939       17,163               -     50,147      546,661          (101)        546,560
       Less: Earned Revenues                  (197)           (148)            -       (37)         (64)              -        (90)        (536)            6            ( 530)
       Net Program Costs                   145,133         319,933             -    13,903       17,099               -     50,056      546,125           (95)        546,030

                                                                                                                                                        (continued on next page)




                                                                                                                                              Page 32 of 45

                                                                                                                                                                         Appendix V


                                               U.S. Agency for International Development

                                      SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENT (continued)

                                                For the Year Ended September 30, 2005

                                                         (Dollars in Thousands)


                                                                                                                                           Latin
                                                              Asia & Near                                  Europe &         Global       America &       Combined        Intra-Agency Consolidated
   Goal                                          Africa           East           DCHA          EGAT         Eurasia         Health       Caribbean         Total         Eliminations    Total

   Social and Environmental Issues (continued)
      Improved global health
          Gross Costs                            741,509          644,726             285              -     186,977       1,371,087       252,312         3,196,895            (391)         3,196,504
          Less: Earned Revenues                    (1,021)            (307)              -             -         (710)       (43,319)          (455)         (45,799)            635            ( 45,164)
          Net Program Costs                      740,488          644,419             285              -     186,267       1,327,768       251,857         3,151,096             243          3,151,340
      Partnerships, initiatives, and implemented international treaties
          Gross Costs                             51,348          220,589                -    158,916          49,251                -      74,316           554,419            (118)           554,301
          Less: Earned Revenues                       (70)             (79)              -     (20,523)          (185)               -         (133)         (20,851)            171            (20,680)
          Net Program Costs                       51,278          220,509                -    138,392          49,066                -      74,183           533,568              53            553,621

   Humanitarian Response
      Effective protection, assistance, and durable solutions for refugees
          Gross Costs                             58,626           46,102        398,844               -       46,321                -      45,505           595,398            (182)           595,216
          Less: Earned Revenues                       (66)               (1)         (392)             -         (176)               -          (82)             (718)              8               (710)
          Net Program Costs                       58,560           46,101        398,452               -       46,144                -      45,423           594,680            (174)           594,506
      Improved capacity of host countries to reduce vulnerabilities to disasters
          Gross Costs                               8,060          19,725         16,796      461,354           7,462                -      79,880           593,276             (37)           593,238
          Less: Earned Revenues                       (10)               (9)          (17) (193,809)               (28)              -         (143)        (191,945)            906           (191,039)
          Net Program Costs                         8,051          19,715         16,778      267,545           7,433                -      79,736           401,330             869            402,199

   Management and Organizational Excellence
      A high performing, well-trained, and diverse workforce
          Gross Costs                                     -               -              -      10,682               -               -             -          10,682             (12)            10,670
          Less: Earned Revenues                           -               -              -          (28)             -               -             -              (28)              1                (27)
          Net Program Costs                               -               -              -      10,653               -               -             -          10,653             (11)            10,643
      Customer-oriented, innovative delivery of administrative and information services
          Gross Costs                                     -               -              -         594               -               -             -              594              (2)               592
          Less: Earned Revenues                           -               -              -           (2)             -               -             -               (2)              -                  (2)
          Net Program Costs                               -               -              -         592               -               -             -              592              (2)               590
      Integrated budgeting, planning, and performance management; effective financial management; and demonstrated financial accountability.
          Gross Costs                                     -               -              -       2,149               -               -             -            2,149              (5)             2,144
          Less: Earned Revenues                           -               -              -           (6)             -               -             -               (6)              -                  (6)
          Net Program Costs                               -               -              -       2,143               -               -             -            2,143              (5)             2,138
      Modernized, secure, and high quality information technology management and infrastructure that meet critical business requirements.
          Gross Costs                               1,283                 -              -             -             -               -             -            1,283              (2)             1,281
          Less: Earned Revenues                         (2)               -              -             -             -               -             -               (2)              -                 ( 2)
          Net Program Costs                         1,281                 -              -             -             -               -             -            1,281              (2)             1,279
   Public Diplomacy and Public Affairs
      American understanding and support for U.S. foreign policy
          Gross Costs                                     -               -              -             -             -               -             -                 -              -                   -
          Less: Earned Revenues                           -               -              -             -             -               -             -                 -              -                   -
          Net Program Costs
   Net Costs of Operations                   $ 1,472,345      $ 4,434,437      $1,854,204 $610,834 $1,387,382 $1,327,768 $1,168,655 $12,255,626                             $       -      $12,255,626

Note:The Total Earned Revenue by strategic goals on Notes 17 and 18 are slightly off from the Consolidated and Consolidating Statement of Net Cost. Some public earned revenue could not be mapped
to a specific goal. Since the amount was immaterial, it was allocated amongst the goals with the largest amounts of public earned revenue i.e., Economic Prosperity and Security, Social and Environmental
Issues and Humanitarian Response. Pre-allocatoin, these goals collectively made up approximately 99% of the Total Public Earned revenue.

                                                                                                                                                                  Page 33 of 45
                                                                                                             Appendix V




NOTE 19. PRIOR PERIOD ADJUSTMENT
USAID recorded a prior adjustment during FY 2005. Fiscal Year 2004 accounts payable accruals were underestimated at the end of
FY 2004 by $383.1 million. Note 22 discusses this prior adjustment in detail. There were no prior period adjustment for FY 2004.


NOTE 20. STATEMENT OF BUDGETARY RESOURCES
A. Apportionment Categories of Obligations Incurred (Dollars in Thousands):
                                       FY 2005      FY 2004

  Category A, Direct               $     711,346    $   39,926
  Category B, Direct                   12,272,395    11,316,180
  Category A, Reimbursable                  8,990       27,475
  Category B, Reimbursable                50,222        24,854
  Total                            $ 13,042,953     $11,408,435



B. Borrowing Authority, End of Period and Terms of Borrowing Authority Used:

For credit financing activities, borrowing authority for FY 2005 was $301.9 million. For FY 2004 borrowing authority was $31.9 million

Borrowing Authority is indefinite and authorized under the Credit Reform Act of 1990 (P.L. 101-508), and is used to finance obligations
during the current year, as needed.


C. Adjustments to Beginning Balance of Budgetary Resources:

There were no differences for FY 2005 between prior year and current year beginning balances.

D. Permanent Indefinite Appropriations:

USAID has permanent indefinite appropriations relating to specific Credit Reform Program and Liquidating appropriations. USAID is
authorized permanent indefinite authority for Credit Reform Program appropriations for subsidy reestimates, and Credit Reform Act
of 1990.

E. Legal Arrangements Affecting the Use of Unobligated Balances:

Pursuant to Section 511 of PL 107-115 funds shall remain available until expended if such funds are initially obligated before the
expiration of their periods of availability. Any subsequent recoveries (deobligations) of these funds become unobligated balances that
are available for reprogramming by USAID (subject to OMB approval through the apportionment process).

A fund shown as Program on the Statement of Budgetary Resources in FY 2004 was reclassified as Allocations in FY 2005. To ensure
comparability of the statements, the FY 2004 Total Budgetary Resources and Status of Resources was decreased by $2,204 million,
Outlays increased by $240 million, and ending obligations by $1,925 million. No other statements are affected by this reclassification.




                                                                                                         Page 34 of 45

                                                                                                                      Appendix V




NOTE 21. STATEMENT OF FINANCING - OTHER

Explanation of the Relationship Between Liabilities               agencies are shown on the Statement of Budgetary Resources,
Not Covered by Budgetary Resources on the Balance                 but are not shown on the Balance Sheet nor the Statement of
Sheet and the Change in Components Requiring or                   Net Costs. Below is a reconciliation of obligations and spending
Generating Resources in Future Periods                            authority from offsetting collections between the Statement of
                                                                  Budgetary Resources and the Statement of Financing. Below is a
Contingent liabilities for Loan Guarantees on the Balance Sheet   reconciliation of Obligations, Offsetting Receipts and Recoveries
represent cumulative balances, of which $195 million represent    between the Statement of Financing and the Statement of
the Credit Subsidy expense reestimates requiring resources in     Budgetary Resources.
future periods.       Current period changes of $3.5 million
represents the current period increase in the Accrued Unfunded    Changes in FY 2005 for Statement of Financing:
Annual Leave Separation Pay liability, and is shown on the
Statement of Financing as a change in components requiring        A net decrease of obligations incurred and a decrease of
resources in future periods.                                      obligation recoveries during FY 2005 as well as an increase of
                                                                  Credit Program collections for both liabilities and subsidies are
Explanation of the Relationship Between the Statement             the primary reasons for the increase in the Total Resources Used
of Changes in Net Position and the Statement of                   to Finance items not part of the net cost of operations on the
Financing                                                         Statement of Financing. During FY 2005, Net Obligations
                                                                  decreased by $598 million, and Credit Program Collections were
Transfers in without reimbursement for $1.8 million and
                                                                  about $1,283 million. For FY 2004, net obligations increased by
Donated Revenue of $17.5 million are shown on both the
                                                                  about $1.397 million and total credit program collections were
Statement of Changes of Net Position as Other Financing
                                                                  about $1,070 million.
Sources and on the Statement of Financing as Other Resources.
                                                                  For the Upward/Downward Re-estimates of Credit Subsidy
Description of Transfers that Appear as a Reconciling
                                                                  Expense, during FY 2005, there was a net decrease for Credit
Item on the Statement of Financing
                                                                  Program subsidy re-estimates of about $14 million, as compared
Appropriations that are transferred from other Federal Agencies   to an increase in FY 2004 of $209 million. This is generally
to USAID are not shown on the Statement of Budgetary              caused by a favorable economic world climate during FY 2005,
Resources, but are shown on the Balance Sheet and Statement       thus the lowering of sovereign country default rates.
of Net Costs. Appropriations that are transferred to other




                                                                                                                  Page 35 of 45

                                                                                                                     Appendix V



   Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources on the
 Balance Sheet and the Change in Components Requiring or Generating Resources in Future Periods
                                       (Dollars in Thousands)

  Obligations Incurred, Statement of Budgetary Resources                                                                  $10,525,521
     Less: Transfers to Other Agencies
        Department Of State                                                                              (685,344)
        Department of Agriculture                                                                          (4,996)
        Nuclear Regulatory Commission                                                                      (2,188)
        Department of Energy                                                                               (1,440)
        Others                                                                                             (1,863)           (695,831)
     Add: Transfers from Other Agencies
        Department of Agriculture                                                                       1,247,800
        Department of State                                                                              947,226
        Executive Office of the President                                                                983,491
        Other                                                                                             34,746             3,213,263
  Obligations Incurred, Statement of Financing                                                                              13,042,953


  Offsetting Collections and Recoveries, Statement of Budgetary Resources                                                    3,006,709
     Less: Transfers to Other Agencies
        Department of State                                                                                (7,695)
        U.S.Treasury Department                                                                          (999,389)
        Department of Agriculture                                                                          (3,063)
        Other                                                                                               (125)           (1,010,272)
     Add: Allocations from Other Agencies
        Executive Office of the President                                                                232,897
        Department of Agriculture                                                                         96,412
        Other                                                                                                236              329,545
  Offsetting Collections and Recoveries, Statement of Financing                                                           $ 2,325,982




NOTE 22. RESTATEMENT
Year end accounts payable accruals were underestimated at the                 Statement of Financing: Increase in Change in Budgetary
end of FY 2004 by about $383.1 million. Because of this error,                Resources Obligated for Goods, Services and Benefits Ordered,
the following statements and affected line items were restated, as            but not yet Provided.
indicated below, by the $383.1 million:
                                                                            This change to the FY 2004 statements also resulted in a
   Balance Sheet: Increase in Accounts Payable to the Public;               reduction of the FY 2004 year ending balance in Unexpended
   and Decrease in Unexpended Appropriations.                               Appropriations. To correctly show the FY 2005 beginning
                                                                            balance, a prior period correcting entry was made in FY 2005 to
   Statement of Changes in Net Position: Increase in                        reduce the beginning balance of Unexpended Appropriations
   Appropriations Used, Cumulative Results of Operations; and               and corresponding expenses for $383.1 million. This adjustment
   Decrease in Appropriations Used, Unexpended                              was made per the Treasury USSGL guidelines.
   Appropriations.

   Statement of Net Costs: Increase in Expenses.




                                                                                                                Page 36 of 45

                                                                                                                       Appendix V





INTRAGOVERNMENTAL ASSETS:

                                                               Fund Balance         Accounts       Advances and
                                 Agency                        with Treasury     Receivable, Net   Prepayments         Totals
  Treasury                                                     $ 17,503,843       $          –     $           -   $ 17,503,843
  Dept of Agriculture                                                      –           819,928            3,026         822,954
  Dept of Commerce                                                         –                 –             532              532
  Dept of State                                                            –                 –           18,197          18,197
  Other                                                                    –             3,005            8,821          11,826
  Total                                                        $ 17,503,843       $    822,934     $     30,575    $ 18,357,352




INTRAGOVERNMENTAL LIABILITIES:
                                                 Due to            Accounts
                        Agency                  Treasury            Payable           Debt             Other           Totals
  Treasury                                  $    5,311,661     $        3,259     $    422,602     $     12,546    $   5,750,068     

  GSA                                                      –            9,730                –                 –           9,730

  Dept of Agriculture                                      –            4,285                –                 –           4,285 

  Dept of Labor                                            –           (2,814)               –                 –          (2,814)

  Dept of Health and Human Services                        –            7,830                –                 –           7,830

  Other                                                    –            1,941                –           17,964           19,905

  Total                                     $    5,311,661     $       24,232     $    422,602     $     30,510    $   5,789,005





INTRAGOVERNMENTAL EARNED REVENUES AND RELATED COSTS:

USAID's intragovernmental earned revenues are not greater than $500 million. As such, intragovernmental earned revenues and
related costs by trading partner are not required to be reported.




                                                                                                                   Page 37 of 45

                                                                                                                                                                        Appendix V


                             U.S. Agency for International Development

           REQUIRED SUPPLEMENTARY INFORMATION: SCHEDULE OF BUDGETARY RESOURCES

                             For the period ended September 30, 2005


                                                                                                                                                                                 Alocations to
                                                                                                                                                       Credit-                       Other     Consolidated
                                                    Operating                                         Program                                         Financing    Other           Agencies       Total
                                                     1000         1010         1021        1029        1035      1037        1093         1095

Budgetary Resources
Budget Authority
   Appropriations Received                        $642,400      $396,600 $1,460,000      $656,000    $578,000    $42,500   $630,994    $1,550,000 $          –    $ 4,152,556      $ 7,535       $10,116,585
   Borrowing Authority (Note 20)                          –            –            –           –           –         –           –            –       310,947             –             2,000      312,947
   Net Transfers                                      1,969     (142,482)      (3,110)   (183,919)     30,603         –    (160,033)      30,989             –       775,202           241,300      590,519
   Other                                                  –            –            –           –           –         –           –            –             –             –                –              –
   Total Budget Authority                           644,369      254,118    1,456,890     472,081     608,603     42,500    470,961     1,580,989      310,947     4,927,758           250,835    11,020,051
Unobligated Balance:
   Beginning of Period                               71,106       95,440      55,721            –     201,168         –     145,304      238,910      1,001,713    1,205,208           423,168     3,439,036
   Net Transfers, Actual                                  –            –            –           –           –         –           –            –             –           656        (864,907)       (864,251)
   Total Unobligated Balance                         71,106       95,440      55,721            –     201,168         –     145,304      238,910      1,001,713    1,207,162        (441,739)      2,574,785
Spending Authority from Offsetting Collections:
Earned
   Collected                                          5,260            6        1,576           –       2,221         –       1,810        4,667       558,897     1,288,903             1,501     1,864,841
   Receivable from Federal Sources                        –            –            –           –           –         –           –            –             –             –              351           351
Change in Unfilled Customer Orders
   Advance Received                                       –            –            –           –                     –           –            –             –             –                –              –
   Anticipated for Rest of Year, Without Advances     2,064            –         279            –        489          –           –            –             –           189                –          3,021
   Subtotal                                           7,324            6        1,855           –       2,710         –       1,810        4,667       558,897     1,289,092             1,852     1,868,213
Recoveries of Prior-Year Obligations                 14,664        9,996      17,626            –      15,754         –      47,372        2,554             –        22,110        1,008,420      1,138,496
Permanently Not Available                            (5,393)      (3,637)     (11,711)          –      (3,104)        –      (4,730)     (12,400)            –     (1,738,284)              –     (1,779,259)
Total Budgetary Resources                           732,070      355,923    1,520,381     472,081     825,131     42,500    660,717    1,814,720      1,871,557    5,707,838           819,368    14,822,286

Status of Budgetary Resources:
Obligations Incurred (Note 20):
   Direct                                           672,791      284,525    1,387,550     437,767     745,707     42,500    481,988     1,616,947      709,517     3,391,186           695,831    10,466,309
   Reimbursible                                       7,323            6        1,855           –       2,710         –       1,810        4,667             –        40,841                –         59,212
   Subtotal                                         680,114      284,531    1,389,405     437,767     748,417     42,500    483,798     1,621,614      709,517     3,432,027           695,831    10,525,521
Unobligated Balances - Available                     51,236       70,872     129,809       34,314      76,271         –     176,857      193,110      1,162,040    2,271,956           120,731     4,287,196
Unobligated Balances - Unavailable                     720          520         1,167           –        443          –         62             (4)           –         3,855             2,806         9,569
Total, Status of Budgetary Resources                732,070      355,923    1,520,381     472,081     825,131     42,500    660,717    1,814,720      1,871,557    5,707,838           819,368    14,822,286

Relationship of Obligations to Outlays:
Obligated Balance, Net,
   Beginning of Period (Note 20)                    164,482      452,415    2,630,507           –     379,666         –     544,004     2,073,456       11,031     3,312,583        1,267,439     10,835,583
Obligated Balance,Transferred, Net                        –            –            –           –           –         –           –            –             –             –                –              –
Obligated Balance, Net, End of Period
   Accounts Receivable                                 (225)           –            –           –           –         –           –            –             –         (3,467)              –         (3,692)
   Unfilled Customer Orders
     From Federal Sources                            (3,955)           –        (279)           –        (489)        –           –            –             –         (2,891)              –         (7,614)
   Undelivered Orders                               (35,560)     105,350    1,910,639     432,078     355,589         –     314,452     1,603,568         2,768    3,194,628             3,528     7,887,040
   Accounts Payable                                 226,368      148,146     575,132        1,816     275,245         –     235,947      365,919           520       574,185                –      2,403,278

Outlays:
   Disbursements                                    641,239      473,453    1,516,515       3,873     481,496     42,500    430,031     1,723,028      717,260     2,959,856             3,528     8,992,779
   Collections                                       (5,260)          (6)      (1,576)          –      (2,221)        –      (1,810)       (4,667)    (558,897)    (1,288,903)              –     (1,863,340)
   Subtotal                                         635,979      473,447    1,514,939       3,873     479,275     42,500    428,221     1,718,361      158,363     1,670,953             3,528     7,129,439
Less: Offsetting Receipts                                 –            –            –           –           –         –           –            –             –      (195,568)               –       (195,568)
Net Outlays                                       $635,979      $473,447 $1,514,939      $ 3,873     $479,275    $42,500   $428,221    $1,718,361 $    158,363    $ 1,475,385      $     3,528   $ 6,933,871




                                                                                                                                                                  Page 38 of 45

                                                                                                                                                     Appendix V




MAJOR FUNDS                                                 OTHER FUNDS                                              OTHER FUNDS (continued)
Operating Funds                                             Operating Funds                                          Credit Program Funds
1000 Operating Expenses of USAID                            1007 Operating Expenses of USAID Inspector General       0400 MSED Program Fund
Program Funds                                               1036 Foreign Service Retirement and Disability Fund      0401 UE Program Fund
1010 Special Assistance Initiatives                         Program Funds                                            0402 Ukraine Program Fund
1021 Development Assistance                                 1012 Sahel Development Program                           1264 DCA Program Fund
1029 Tsunami Relief and Reconstruction Fund                 1014 Africa Development Assistance                       4103 Economic Assistance Loans - Liquidating Fund
1035 International Disaster Assistance                      1023 Food and Nutrition Development Assistance           4340 UE Guarantee Liquidating Fund
1037 Economic Support Fund                                  1024 Population and Planning & Health Dev. Asst.         4341 MSED Direct Loan Liquidating Fund
1093 Assistance for the N.I.S. Of The Former Soviet Union   1025 Education and Human Resources, Dev. Asst.           5318 Israel Admin Expense Fund
1095 Child Survival and Disease Programs Funds              1027 Transition Initiatives                              Revolving Funds
                                                            1028 Global Fund to Fight HIV / AIDS                     4175 Property Management Fund
CREDIT-FINANCING FUNDS                                      1038 Central American Reconciliation Assistance          4513 Working Capital Fund
                                                            1040 Sub-Saharan Africa Disaster Assistance              4590 Acquisition of Property, Revolving Fund
4119   Israel Guarantee Financing Fund                      1096 Latin American/Caribbean Disaster Recovery
4137   Direct Loan Financing Fund                           1500 Demobilization and Transition Fund                  ALLOCATIONS TO OTHER AGENCIES
4266   DCA Financing Fund                                   Trust Funds
                                                                                                                     1000   Operating Expenses of USAID
4342   MSED Direct Loan Financing Fund                      8342 Foreign Natl. Employees Separation Liability Fund
                                                                                                                     1010   Special Assistance Initiatives
4343   MSED Guarantee Financing Fund                        8502 Tech. Assist. - U.S. Dollars Advance from Foreign
                                                                                                                     1014   Africa Development Assistance
4344   UE Financing Fund                                    8824 Gifts and Donations
                                                                                                                     1021   Development Assistance
4345   Ukraine Financing Fund
                                                                                                                     1027   Transition Initiatives
                                                                                                                     1032   Peacekeeping Operations
                                                                                                                     1035   International Disaster Assistance
                                                                                                                     1037   Economic Support Fund
                                                                                                                     1093   Assistance for the N.I.S. Of The Former Soviet Union
                                                                                                                     1095   Child Survival and Disease Programs Funds
                                                                                                                     1096   International Organizations + Programs
                                                                                                                     1500   Demobilization and Transition Fund




                                                                                                                                                Page 39 of 45

                                                                                                                                           Appendix V




                                         U.S. Agency for International Development

                                           CONSOLIDATING BALANCE SHEET

                                                 As of September 30, 2005

                                                   (Dollars in Thousands)


                                                  Credit                                                                    Intra-
                                                 Program       Program        Operating Revolving Trust            Other    Agency
                                                  Funds         Funds          Funds     Funds    Funds            Funds Elimination         Total
ASSETS
  Intragovernmental
     Fund Balance with Treasury                 $ 1,922,622    $ 15,106,292    $ 462,203     $ 1,827   $ 36,697 $ (25,798) $          – $ 17,503,843
     Accounts Receivable                            330,546              –       820,137          –          –            –    (327,437)     823,246
     Other Assets                                         –         29,138         1,437          –          –            –           –       30,575
  Total Intragovernmental                          2,253,168     15,135,430     1,283,777      1,827    36,697      (25,798) (327,437)     18,357,664


     Cash and Other Monetary Assets                      50              –       282,952          –          –            –                  283,002
     Accounts Receivable, Net                        53,226         19,358         1,107          1          –        5,925           –       79,617
     Loans Receivable, Net                         5,100,249             –              –         –          –            –           –     5,100,249
     Inventory and Related Property                       –         30,804        13,318          –          –            –           –       44,122
     General Property, Plant, and Equipment, Net          –            461        95,711          –          –            –           –       96,172
     Advances and Prepayments                           148        721,996        26,591       1,013       245            –           –      749,993
  Total Assets                                     7,406,841     15,908,049     1,703,456      2,841    36,942      (19,873) (327,437)     24,710,819


LIABILITIES
  Intragovernmental
        Accounts Payable                            327,267         24,722          (320)         –          –            –    (327,437)      24,232
        Debt                                        422,602              –             –          –          –           –            –      422,602
        Due to U.S.Treasury                        5,311,661             –              –         –          –            –           –     5,311,661
        Other Liabilities                            15,941            (26)        8,670          –          –        5,925           –       30,510
     Total Intragovernmental                       6,077,471        24,696         8,350          –          –        5,925    (327,437)    5,789,005

     Accounts Payable                                42,501       2,518,148      655,833       1,060      6,920     (43,870)          –     3,180,592
     Loan Guarantee Liability                      1,562,485             –              –         –          –            –           –     1,562,485
     Federal Employees and Veteran's Benefits             –              –        23,726          –          –            –           –       23,726
     Other Liabilities                               12,485            111       328,397          –     31,270       18,072           –      390,335
     Total Liabilities                             7,694,942      2,542,955     1,016,306      1,060    38,190      (19,873) (327,437)     10,946,143


     Commitments and Contingencies                        –              –              –         –          –            –           –              –

NET POSITION
     Unexpended Appropriations                       47,170      13,026,593       (69,737)      148          –            –           –    13,004,174
     Cumulative Results of Operations              (335,271)       338,501       756,887       1,633     (1,248)          –           –      760,502
     Total Net Position                            (288,101)     13,365,094      687,150       1,781     (1,248)          –           –    13,764,676


  Total Liabilities and Net Position            $ 7,406,841    $ 15,908,049   $ 1,703,456    $ 2,841   $ 36,942 $ (19,873) $(327,437) $ 24,710,819




                                                                                                                                     Page 40 of 45

                                                                                                                            Appendix V



                                         U.S. Agency for International Development

                                       CONSOLIDATING STATEMENT OF NET COST

                                          For the Year Ended September 30, 2005

                                                   (Dollars in Thousands)


                                       Credit Program       Program      Operating      Revolving     Trust       Other    Intra-Agency         Total
Goal                                       Funds             Funds        Funds          Funds        Funds       Funds     Elimination        Amount

Regional Stability
  Intragovernmental Costs               $        -      $     16,862     $    12,328    $      11     $       -   $   -      $     (107)   $     29,095
  Public Costs                                   -           722,208          32,562          288          438        -               -         755,496
       Total Costs                               -           739,070          44,890          300          438        -            (107)        784,590
  Intragovernmental Earned Revenue               -                  -          (230)         (284)            -       -               7            (507)
  Public Earned Revenue                          -                 (2)           (98)         (17)            -       -               -            (117)
       Less Total Earned Revenues                -                 (2)         (328)         (301)            -       -               7            (624)
  Net Program Costs                              -           739,068          44,562            (1)        438        -            (100)        783,966

Counterterrorism
  Intragovernmental Costs                        -               486           8,170            8             -       -             (32)          8,631
  Public Costs                                   -           857,176          21,577          191          290        -               -         879,234
       Total Costs                               -           857,662          29,747          198          290        -             (32)        887,866
  Intragovernmental Earned Revenue               -                  -          (153)         (188)            -       -               5            (336)
  Public Earned Revenue                          -                 (1)           (65)         (12)            -       -               -             (78)
       Less Total Earned Revenues                -                 (1)         (217)         (200)            -       -               5            (413)
  Net Program Costs                              -           857,661          29,530            (1)        290        -             (27)        887,452

International Crime and Drugs
  Intragovernmental Costs                        -            31,801           7,615            7             -       -            (144)         39,280
  Public Costs                                   -           157,855          20,114          178          270        -               -         178,417
       Total Costs                               -           189,657          27,729          185          270        -            (144)        217,697
  Intragovernmental Earned Revenue               -                  -          (142)         (175)            -       -               4            (313)
  Public Earned Revenue                          -                 (1)           (60)         (11)            -       -               -             (72)
       Less Total Earned Revenues                -                 (1)         (203)         (186)            -       -               4            (385)
  Net Program Costs                              -           189,655          27,526            (1)        270        -            (140)        217,311

Democracy and Human Rights
  Intragovernmental Costs                        -             6,082          52,511           48             -       -            (215)         58,426
  Public Costs                                   -           996,763         138,692        1,228         1,864       -               -        1,138,546
       Total Costs                               -          1,002,845        191,203        1,276         1,864       -            (215)       1,196,972
  Intragovernmental Earned Revenue               -             (2,391)         (981)        (1,209)           -       -             64            (4,516)
  Public Earned Revenue                          -                 (8)         (417)          (75)            -       -               -            (499)
       Less Total Earned Revenues                -             (2,399)        (1,397)       (1,283)           -       -             64            (5,015)
  Net Program Costs                              -          1,000,446        189,806            (7)       1,864       -            (151)       1,191,958

Economic Prosperity and Security
  Intragovernmental Costs                    6,141            42,170          78,347           72             -       -            (524)        126,206
    Public Costs                            10,006          2,491,253    1,310,265          1,825         2,771       -               -        3,816,120
          Total Costs                       16,147          2,533,423    1,388,612          1,897         2,771       -            (524)       3,942,326
    Intragovernmental Earned Revenue             -             (1,309)        (1,458)       (1,797)           -       -             64            (4,500)
    Public Earned Revenue                   (2,244)              (48)          (619)         (111)            -       -               -           (3,022)
          Less Total Earned Revenues        (2,244)            (1,357)        (2,077)       (1,908)           -       -             64            (7,522)
    Net Program Costs                       13,903          2,532,066    1,386,535            (11)        2,771       -            (460)       3,934,804

                                                                                                                                 (continued on next page)



                                                                                                                          Page 41 of 45
                                                                                                                             Appendix V



                                          U.S. Agency for International Development

                                     CONSOLIDATING STATEMENT OF NET COST (continued)

                                            For the Year Ended September 30, 2005

                                                     (Dollars in Thousands)


                                          Credit Program     Program       Operating     Revolving     Trust       Other     Intra-Agency      Total
Goal                                          Funds           Funds         Funds         Funds        Funds       Funds      Elimination     Amount

Social and Environmental Issues
  Intragovernmental Costs                      23,243           83,615        82,779            76             -       -            (609)       189,105
  Public Costs                                 35,318         3,849,436      218,634         1,935       2,938         -               -      4,108,261
       Total Costs                             58,562         3,933,051      301,413         2,011       2,938         -            (609)     4,297,366
  Intragovernmental Earned Revenue            (11,333)          (43,092)       (1,546)       (1,905)           -       -            811         (57,065)
  Public Earned Revenue                        (8,536)            (151)         (657)         (118)            -       -               -         (9,460)
       Less Total Earned Revenues             (19,868)          (43,243)       (2,202)       (2,023)           -       -            811         (66,525)
  Net Program Costs                            38,693         3,889,808      299,211           (12)      2,938         -            202       4,230,840

Humanitarian Response
  Intragovernmental Costs                           -           41,764        18,111            17             -       -            (219)        59,672
  Public Costs                                461,354          618,528        47,834           423         643         -               -      1,128,782
       Total Costs                            461,354          660,292        65,945           440         643         -            (219)     1,188,454
  Intragovernmental Earned Revenue            (64,489)                -         (338)         (417)            -       -            914         (64,329)
  Public Earned Revenue                      (127,250)           (2,061)        (144)          (26)            -       -               -       (129,480)
       Less Total Earned Revenues            (191,739)           (2,061)        (482)         (443)            -       -            914        (193,809)
  Net Program Costs                           269,615          658,231        65,463             (3)       643         -            695         994,645

Management and Organizational Excellence
  Intragovernmental Costs                           -            4,992           737             1             -       -             (21)         5,709
  Public Costs                                      -            6,989         1,945            17          26         -               -          8,978
       Total Costs                                  -           11,981         2,682            18          26         -             (21)        14,686
  Intragovernmental Earned Revenue                  -                 -          (14)          (17)            -       -               -            (30)
  Public Earned Revenue                             -                 -            (6)           (1)           -       -               -             (7)
       Less Total Earned Revenues                   -                 -          (20)          (18)            -       -               -            (37)
  Net Program Costs                                 -           11,981         2,662              -         26         -             (21)        14,649
Public Diplomacy and Public Affairs
  Intragovernmental Costs                           -                 -             -             -            -       -               -              -
  Public Costs                                      -                 -             -             -            -       -               -              -
       Total Costs                                  -                 -             -             -            -       -               -              -
Intragovernmental Earned Revenue                    -                 -             -             -            -       -               -              -
  Public Earned Revenue                             -                 -             -             -            -       -               -              -
       Less Total Earned Revenues                   -                 -             -             -            -       -               -              -
  Net Program Costs                                 -                 -             -             -            -       -               -              -
  Net Costs of Operations                  $ 322,212       $ 9,878,917     $2,045,294    $     (37)    $ 9,240     $   -       $       -    $12,255,626




                                                                                                                           Page 42 of 45

                                                                                                                          Appendix V
                                U.S. Agency for International Development

                       CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION

                                 For the Year Ended September 30, 2005

                                          (Dollars in Thousands)


                                                         Credit
                                                        Program       Program       Operating        Revolving   Trust           Other
                                                         Funds         Funds         Funds            Funds      Funds           Funds      Total
Beginning Balances                                  $     17,697    $ 13,243,619    $    792,829     $   1,744   $       (9) $      –    $ 14,055,880
Prior period adjustments                                     (36)       (258,765)       (124,344)           –            –          –        (383,145)
Beginning Balances, as adjusted                           17,661      12,984,854         668,485         1,744           (9)        –      13,672,735


   Budgetary Financing Sources:
      Appropriations Received                             11,927       9,255,194         781,400            –            –          –      10,048,521
      Appropriations transferred–in/out                    6,460       2,059,256           4,535            –            –          –       2,070,251
      Other adjustments (recissions, etc)                  (125)      (1,055,293)          (5,977)          –            –          –      (1,061,395)
      Appropriations used                                      –               –               –            –            –          –               –
      Nonexchange revenue                                      –               –               –            –            –          –               –
      Donations and forfeitures of cash                      11                –         101,770            –        8,001          –        109,782
        and cash equivalents
      Transfers–in/out without reimbursement                   –               –        1,165,437           –            –          –       1,165,437
      Other budgetary financing sources                        –               –               –            –            –          –               –


   Other Financing Sources:
      Donations and forfeitures of property                    –               –               –            –            –          –               –
      Transfers–in/out without reimbursement              (1,823)              –               –            –            –          –          (1,823)
      Imputed financing from costs absorbed by others          –               –          16,794            –            –          –         16,794
   Total Financing Sources                                16,450      10,259,157        2,063,959           –        8,001          –      12,347,567
   Net Cost of Operations                                322,212       9,878,917        2,045,294         (37)       9,240          –      12,255,626
   Net Change                                           (305,762)       380,240           18,665           37        (1,239)        –         91,941
Ending Balances                                     $ (288,101)     $ 13,365,094    $    687,150     $   1,781   $ (1,248) $        –    $ 13,764,676




                                                                                                                      Page 43 of 45

                                                                                                                                                    Appendix V

                                          U.S. Agency for International Development

                                  CONSOLIDATING STATEMENT OF BUDGETARY RESOURCES

                                           For the Year Ended September 30, 2005

                                                    (Dollars in Thousands)


                                                         Credit
                                                        Program      Program Operating Revolving Trust               Other        Credit-
                                                         Funds        Funds   Funds     Funds    Funds               Funds       Financing Allocations           Total

Budgetary Resources:
Budget Authority
Appropriations Received                             $     61,927     $ 9,255,194 $ 781,400 $       –     $10,529 $          – $          –    $      7,535    $ 10,116,585
Borrowing Authority                                            –             –           –         –          –             –      310,947           2,000        312,947
Net Transfers                                              5,804       338,880       4,535         –          –             –            –        241,300         590,519
Other                                                          –             –           –         –          –             –            –               –               –
Total Budget Authority                                    67,731      9,594,074    785,935         –      10,529            –      310,947        250,835      11,020,051
Unobligated Balances
Beginning of Period                                      178,492      1,748,169     82,984     2,484       2,026            –     1,001,713       423,168       3,439,036
Net Transfers, Actual                                        656             –           –         –          –             –            –        (864,907)      (864,251)
Total Unobligated Balance                                179,148      1,748,169     82,984     2,484       2,026             –    1,001,713       (441,739)     2,574,785
Spending Authority from Offsetting Collections
Earned
Collected                                               1,379,341       49,064       6,926     6,362          –             –      421,647           1,501      1,864,841
Receivable from Federal Sources                                –              –          –         –          –             –            –            351             351
Change in Unfilled Customer Orders
   Advance Received                                            –              –          –         –          –             –            –               –               –
   Anticipated for Rest of Year, Without Advances              –          1,158      2,064      (201)         –             –            –               -          3,021
Subtotal                                                1,379,341        50,222      8,990     6,161          –             –      421,647           1,852      1,868,213
Recoveries of Prior-Year Obligations                       1,675       112,894      15,856        41       (390)            –            –    1,008,420         1,138,496
Permanently Not Available                               (716,644)    (1,056,435)    (6,180)        –          –             –            –               –     (1,779,259)
Total Budgetary Resources                                911,251     10,448,924    887,585     8,686      12,165            –    1,734,307        819,368      14,822,286


Status of Budgetary Resources:
Obligations Incurred:
              Direct                                      53,289      8,184,669    808,982     5,945       8,075            –      709,518        695,831      10,466,309
              Reimbursible                                     –        50,222       8,990         –          –             –            –               –         59,212
Subtotal                                                  53,289      8,234,891    817,972     5,945       8,075            –      709,518        695,831      10,525,521
Unobligated Balances–Available                           857,744      2,208,208     68,893     2,741       4,090            –     1,024,789       120,731       4,287,196
Unobligated Balances–Unavailable                             218          5,825       720          –          –             –            –           2,806          9,569
Total Status of Budgetary Resources                      911,251     10,448,924    887,585     8,686      12,165            –    1,734,307        819,368      14,822,286


Relationship of Obligations to Outlays:
Obligated Balance, Net, Beginning of Period               34,791      9,297,471    195,072     (1,450)    31,229            –       11,031    1,267,439        10,835,583
Obligated Balance,Transferred, Net                             –              –          –         –          –              –           –               –               –
Obligated Balance, Net, End of Period
Accounts Receivable                                        (3,467)            –       (225)        –          –             –            –               –         (3,692)
Unfilled Customer Orders From Federal Sources                  –         (1,158)    (3,955)    (2,501)        –             –            –               –         (7,614)
Undelivered Orders                                        32,891      7,835,041    (13,428)      540      25,700             –       2,768           3,528      7,887,040
Accounts Payable                                           6,882      2,141,659    246,261     1,048       6,908            –          520               –      2,403,278

Outlays:
Disbursements                                             50,098      7,442,766    766,471     5,569       7,087            –      717,260           3,528      8,992,779
Collections                                         (1,379,341)         (49,064)    (6,926)    (6,362)        –              –    (421,647)              –     (1,863,340)
Subtotal                                            (1,329,243)       7,393,702    759,545      (793)      7,087            –      295,613           3,528      7,129,439
Less: Offsetting Receipts                                      –              –          –         –          –      (195,568)           –               –       (195,568)
Net Outlays                                         $(1,329,243) $ 7,393,702 $ 759,545 $        (793) $ 7,087 $(195,568) $ 295,613            $      3,528    $ 6,933,871

                                                                                                                                              Page 44 of 45

                                                                                                                                                Appendix V



                                                   U.S. Agency for International Development

                                                 CONSOLIDATING STATEMENT OF FINANCING

                                                    For the Year Ended September 30, 2005

                                                             (Dollars in Thousands)


                                                                   Credit Program Program        Operating Revolving        Trust     Other
                                                                        Funds      Funds          Funds     Funds           Funds     Funds     Allocations         Total

Resources Used to Finance Activities:
   Budgetary Resources Obligated
      Obligations Incurred                                           $ 762,807 $ 8,234,891 $       817,972 $ 5,945 $         8,075 $      – $      695,831     $ 10,525,521
         Appropriations transferred to/from other agencies (net)              –     1,965,464     1,247,800          –          –         –       (695,831)       2,517,433
      Total Obligations Incurred                                       762,807     10,200,355     2,065,772      5,945       8,075        –              –      13,042,954
      Less: Spending authority from offsetting
            collections and recoveries                               (1,802,663)    (163,116)       (24,846)    (6,202)       390         –      (1,010,272)     (3,006,709)
            Spending authority transferred to/from other
            agencies (net)                                                    –     (233,003)       (96,542)         –          –         –      1,010,272         680,727
            Total Spending authority from offsetting 

               collections and recoveries                            (1,802,663)    ( 396,119)    ( 121,388)    ( 6,202)      390         –              –       (2,325,982)

      Less: Offsetting Receipts                                               –            –              –          –          – 195,568                –         195,568
      Net Obligations                                                (1,039,856)    9,804,236     1,944,384       (257)      8,465 195,568               –      10,912,540
   Other Resources
      Transfers in without reimbursement                                 (1,823)           –              –          –          –         –              –           (1,823)
      Imputed Financing From Costs Absorbed by Others                         –            –        16,794           –          –         –              –          16,794
   Total resources used to finance activities                        (1,041,679)   9,804,236      1,961,178       (257)      8,465 195,568               –      10,927,511


Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources obligated for goods,
     services and benefits ordered but not yet provided                   2,617      337,245       129,847         221      (1,511)       –              –         468,419
   Resources that fund expenses recognized in prior periods                   –        (5,382)        (348)          (1)        –         –              –           (5,731)
Credit program collections which increase liabilities
      for loan guarantees or allowances for subsidy                   1,283,309            –              –          –          –         –              –        1,283,309
   Resources that finance the acquisition of assets                           –        (2,252)      (45,642)         –          –         –              –         (47,894)
   Other                                                              (242,128)     (256,255)       (24,946)         4          – (195,568)              –        (718,893)
Total resources used to finance items not part
   of net cost of operations                                          1,043,798       73,356        58,911        (224)     (1,511) (195,568)            –         979,210
Total resources used to finance net cost of operations                    2,119    9,877,592      2,020,089        (33)      6,954        –              –      11,906,721


Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
      Increase in annual leave liability                                      –            –          2,236          –       1,239        –              –            3,475
      Upward/Downward reestimates of credit subsidy expense            320,093              –             –          –          –         –              –         320,093
      Increase in exchange revenue recivable from the public                  –             –             –          –          –         –              –                  –
   Total components Requiring or Generating Resources                  320,093             –          2,236          –       1,239        –              –         323,568
      in future periods
   Components not Requiring or Generating Resources
      Depreciation and Amortization                                           –          474        22,280           –          –         –              –          22,754
      Revaluation of assets or liabilities                                    –            –           810           –          –         –              –             810
      Other                                                                   –          851          (121)          (4)     1,047        –              –            1,773
   Total Components not Requiring or Generating Resources                     –         1,325       22,969           (4)     1,047        –              –          25,337
Total components of net cost of operations that will not require
   or generate resources in the current period                         320,093         1,325        25,205           (4)     2,286        –              –         348,905
Net Cost of Operations                                               $ 322,212 $ 9,878,917 $      2,045,294 $      (37) $    9,240 $      – $            –     $ 12,255,626




                                                                                                                                         Page 45 of 45

